<html>
<title> - FOSTERING DEMOCRACY IN THE MIDDLE EAST: DEFEATING TERRORISM WITH BALLOTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





   FOSTERING DEMOCRACY IN THE MIDDLE EAST: DEFEATING TERRORISM WITH 
                                BALLOTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2005

                               __________

                           Serial No. 109-48

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-706                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 17, 2005.....................................     1
Statement of:
    Dugan, Elizabeth, vice president, International Republican 
      Institute; Leslie Campbell, director, Middle East Programs, 
      National Democratic Institute for International Affairs; 
      Febe Armanios, professor, middle eastern studies, 
      Middlebury College; Khaled Saffuri, chairman of the board, 
      Islamic Free Market Institute; and Mona Yacoubian, special 
      adviser Muslim World Initiative, U.S. Institute for Peace..    47
        Armanios, Febe...........................................    71
        Campbell, Leslie.........................................    61
        Dugan, Elizabeth.........................................    47
        Saffuri, Khaled..........................................    79
        Yacoubian, Mona..........................................    95
    Sharansky, Natan, former Israeli Minister, author of ``The 
      Case for Democracy: The Power of Freedom to Overcome 
      Tyranny and Terror''; and Mithal Al-Alusi, Democratic Party 
      of the Iraqi Nation........................................    14
        Al-Alusi, Mithal.........................................    26
        Sharansky, Natan.........................................    14
Letters, statements, etc., submitted for the record by:
    Al-Alusi, Mithal, Democratic Party of the Iraqi Nation, 
      prepared statement of......................................    28
    Armanios, Febe, professor, middle eastern studies, Middlebury 
      College, prepared statement of.............................    73
    Campbell, Leslie, director, Middle East Programs, National 
      Democratic Institute for International Affairs, prepared 
      statement of...............................................    64
    Dugan, Elizabeth, vice president, International Republican 
      Institute, prepared statement of...........................    51
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     8
    Saffuri, Khaled, chairman of the board, Islamic Free Market 
      Institute, prepared statement of...........................    82
    Sharansky, Natan, former Israeli Minister, author of ``The 
      Case for Democracy: The Power of Freedom to Overcome 
      Tyranny and Terror'', prepared statement of................    18
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     4
    Yacoubian, Mona. special adviser Muslim World Initiative, 
      U.S. Institute for Peace, prepared statement of............    98

 
   FOSTERING DEMOCRACY IN THE MIDDLE EAST: DEFEATING TERRORISM WITH 
                                BALLOTS

                              ----------                              


                        WEDNESDAY, MAY 17, 2005

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Dent, Kucinich, Maloney, 
Van Hollen, Ruppersberger, and Higgins.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, Ph.D., senior policy advisor; 
Robert A. Briggs, clerk; Andrew Su, minority professional staff 
member; Earley Green, minority chief clerk; and Jean Gosa, 
minority assistant clerk.
    Mr. Shays. We will call this hearing of the Government 
Reform Subcommittee on National Security, Emerging Threats, and 
International Relations to order. And we welcome our witnesses, 
our distinguished witnesses from both panels and those in 
attendance.
    Standing in a school courtyard in Irbil, Iraq last January, 
some of us were fortunate enough to be able to witness that 
nation's historic steps toward democracy in more than half a 
century. The election was a decisive moment for the people of 
Iraq, and its reverberations are still being felt throughout 
the Middle East. In Lebanon, Syria, Egypt, Saudi Arabia, and 
Iran, people saw that Iraqis asserted their inalienable right 
to a freer, more secure future, and asked, why not here?
    The question challenges us. What does prevent the 
development of a democratic institution and free economies in 
the region? Reasons often cited to explain the political and 
economic stagnation in the Middle East include the corrupting 
dominance of oil wealth, the distorting legacy of western 
colonialism, the military exigencies of Arab-Israeli conflict, 
and the alleged inherent incompatibility between Islam and 
democracy. But the rise of Islamist terrorism as a global 
strategic threat brought to our shores with galvanizing horror 
on September 11, 2001 buried those excuses and breathed new 
life into the call for democratic reforms in the Arab and 
Muslim world.
    The September 2002 National Security Strategy made the 
promotion of democracy a primary tool in the war against 
terrorism. In his second inaugural address, the President 
succinctly set out this element of what is called the ``Bush 
Doctrine'' when he declared ``it is the policy of the United 
States to seek and support the growth of democratic movements 
in institutions in every nation and culture with the ultimate 
goal of ending tyranny in our world.''
    It was not always so. For many, we come late to the dialog 
advocating democracy in the Middle East. Having long subrogated 
overt support for reformists to our Faustian cold war bargains 
with repressive, oil-rich regimes, ours is not always a trusted 
voice in the discussion. Others discount our good intentions in 
the mistaken belief support for Israel and support for 
Palestinian rights and aspirations are incompatible.
    So we meet this morning to examine the scope and impact of 
U.S. efforts to foster the rule of law, self-government, civil 
society, and market economies in a part of the world thought by 
some to be geographically or culturally immune to modern 
forces. In advocating the universal values of human dignity, 
political self-determination, and economic opportunity, we 
advance our national interest in helping those who would drain 
the repressive swamps where terrorism breeds.
    It is not easy work. Exercise of the misnamed soft power of 
ideas requires subtlety, humility, and perseverance, traits not 
always synonymous with U.S. trade policy. As the birth of our 
own democracy proved, emerging from oppression to self-
sufficiency is the work of decades, not days. But liberty must 
be pursued with a determination and vision that allows 
indigenous movements to grow naturally and enthusiastically at 
a pace of their choosing.
    The oppressor will always caution patience, endless 
patience. We can no longer succumb to the despot's alluring 
promise of near-term stability purchased at the expense of 
attempting to delay the inevitable explosion of human freedom. 
Nor can we indulge hubris. As then-Governor George W. Bush said 
in 1999, ``America cherishes freedom, but we do not own it. We 
value the elegant structures of our own democracy but realize 
that, in other societies, the architecture will vary. We 
propose our principles; we must not impose our culture. Yet the 
basic principles of human freedom and dignity are universal. 
People should be able to say what they think, and elect those 
who govern them. These ideals have proven their power on every 
continent.''
    The witnesses on our first panel today understand the power 
and the cost of the pursuit of liberty. Natan Sharansky is a 
leading voice for democracy as a force for change in the Middle 
East. A former Israeli government minister and influential 
author, he offers the world a sobering look at the choice 
between free societies and what he calls fear societies.
    Mithal Al-Alusi is an Iraqi patriot whose dedication and 
personal sacrifice to the cause of freedom give his views a 
unique moral authority. And I might say parenthetically, when I 
was growing up, I always thought, wouldn't it be wonderful to 
have met the people who formed our country, the people who 
risked their lives and the lives of their family. And I am in 
the presence of such a man in Mr. Al-Alusi.
    All our witnesses bring invaluable experience and 
unquestioned expertise to this important discussion, and we 
welcome their testimony. I want to say I am so excited about 
this hearing today.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2706.001
    
    [GRAPHIC] [TIFF OMITTED] T2706.002
    
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``Fostering Democracy in the Middle 
East, Defeating Terrorism with Ballots,'' is called to order. 
And I recognize the ranking member of this subcommittee, Mr. 
Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. And I want 
to welcome our distinguished panelists, former Israeli Minister 
Sharansky and Mr. Al-Alusi. Welcome. I want to thank the 
chairman for his continued dedication to working to find out 
what's going on in the Middle East and what the relationship is 
with the policy of this administration and the outcome.
    We have much to learn from the experts who are here with 
us, and we must listen and use this knowledge to correct the 
disastrous foreign policy road that America has embarked upon. 
Congress can help save many lives by changing the direction of 
policies, but to do that we need facts. As a journalist, Thomas 
Friedman wrote recently: ``You can't build a decent society on 
the graves of suicide bombers and their victims.''
    Our policy has been greatly misguided. During the 
President's 2005 State of the Union address, there were Iraqis 
in the audience who held up their thumbs in a symbol intended 
to convey that democracy had finally reached Iraq thanks to the 
United States. Their hope was to send a message that, even 
though WMDs were never found, the victory of bringing democracy 
to Iraq was worth the cost in blood and treasure. I have to say 
that we are in solidarity to all of those who inspire to 
democracy all over the world.
    We take the intention of the people of Iraq who strive for 
freedom seriously. But before we congratulate ourselves, I 
think that we have to--I have to admit at least, that I am 
skeptical of the administration's policy of promoting 
democracy. The United States does not have a history of 
bringing democracy to nations out of pure altruism; rather, 
there is usually something we have to gain by overthrowing a 
Nation, and the promotion of democracy is the excuse we use to 
use it. Or, in the case of Iraq, was our fallback excuse.
    Perhaps the greatest argument against this vision of true 
altruism is that, when it is in our interest to leave 
undemocratic governments alone, we do. Examples of this 
argument are in the central Asian states of Kazakhstan, 
Kurjistan, Tajikistan, Turkmenistan, and Uzbekistan. Those 
countries have well-known human rights records and serious 
impediments to democracy. According to the State Department's 
2004 report on human rights practices, they catalog very 
intensely the failings of these particular governments that we 
have more or less found fit to work with.
    The United States does not take firm steps to encourage 
reforms. There have been provisions to condition aid based on 
progress in democratization, respect for human rights. However, 
the State Department decided to cut aid in this case to 
Uzbekistan for failure to meet these conditions; but when the 
State Department decided to do it, the Joints Chiefs of Staff 
announced that Uzbekistan would receive more, $21 million, of 
military aid. And the aid condition in Kazakhstan, where they 
had human rights violations, was allowed a Presidential waiver.
    So, soft line approach. And it's probably, in large part, 
due to the strategic location of these states. The central 
Asian states offered overflight and other support when the 
United States went into Afghanistan. Kurjistan, Tajikistan, 
Uzbekistan have hosted coalition troops, provided access to air 
bases.
    Mr. Chairman, I could go on and on, but I want to include 
the rest of this statement in the record.
    Mr. Shays. Without objection.
    Mr. Kucinich. But I hope as I conclude that this hearing 
will go beyond self-congratulation and beyond merely 
illuminating the desire for democracy by people in the Middle 
East. Rather, I hope that this hearing will illuminate how our 
missteps are hindering democracy so that we can correct a 
failed policy. I want to welcome the witnesses, and I hope that 
we can learn from their experiences and knowledge. Thank you.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T2706.003

[GRAPHIC] [TIFF OMITTED] T2706.004

[GRAPHIC] [TIFF OMITTED] T2706.005

[GRAPHIC] [TIFF OMITTED] T2706.006

[GRAPHIC] [TIFF OMITTED] T2706.007

[GRAPHIC] [TIFF OMITTED] T2706.008

    Mr. Shays. I thank the gentleman. His entire statement will 
be in the record. And with this, we would first recognize our 
two witnesses on our first panel, former Israeli minister Natan 
Sharansky, author of ``The Case for Democracy: The Power of 
Freedom to Overcome Tyranny and Terror,'' and Mr. Mithal Al-
Alusi, Democratic Party of the Iraqi Nation.
    As you know, we swear in all our witnesses, and I would at 
this time ask you to stand. We are an investigative committee. 
I would ask you to stand and be sworn in.
    [Witnesses sworn.]
    Mr. Shays. Thank you. We will note for the record our 
witnesses have responded in the affirmative.
    Let me just also do unanimous consent. I ask unanimous 
consent that all members of the subcommittee could place an 
opening statement in the record, and the record will remain 
open for 3 days for that purpose. And, without objection, so 
ordered. I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
And, without objection, so ordered.
    Mr. Sharansky, we are going to have you open up. Your mic 
needs to be on, and you should see a green light when you hit 
that.
    Mr. Sharansky. Yes.
    Mr. Shays. Thank you. And what we do is we will have a 5-
minute count and then we roll over another 5 minutes. But we 
would like your statement to be concluded within 10 minutes.
    Mr. Sharansky. Within 5 minutes.
    Mr. Shays. Well, we are going to let you roll over. You 
have 5 minutes, and you can roll over into the next 5 minutes, 
given that we have a smaller group here.

STATEMENTS OF NATAN SHARANSKY, FORMER ISRAELI MINISTER, AUTHOR 
 OF ``THE CASE FOR DEMOCRACY: THE POWER OF FREEDOM TO OVERCOME 
TYRANNY AND TERROR''; AND MITHAL AL-ALUSI, DEMOCRATIC PARTY OF 
                        THE IRAQI NATION

                  STATEMENT OF NATAN SHARANSKY

    Mr. Sharansky. OK. Thank you, Mr. Chairman.
    Definitely, I didn't come here for self-congratulations, 
but I think it is an extremely important issue, linkage 
between--a connection between freedom and security in the 
world, and I am very glad that today this linkage is recognized 
much better than some years ago.
    In the book which I recently wrote, ``The Case for 
Democracy,'' and which is based also on my experience as a 
dissident, human rights activist, humanitarian, and prisoner of 
conscience for 9 years of the Soviet Union, and also my 
experience of being 9 years in Israel development and being 
involved in the policy discussions in the Middle East, and it 
addresses the serious sources of skepticisms which people had 
and still many of them have about this connection.
    First, do all the people of the world really want to live 
in freedom? Second, is freedom good for our security? Is 
freedom a thousand miles from here good for our security here, 
or it is only a creation of altruism? And does the free world 
have a role to play in it? If so, what kind of role the free 
world can play in all this?
    The first question which, in fact, was the principle 
question, which we as the human rights activists were facing 
for many years in the Soviet Union. And sometimes we heard that 
freedom is not for the people in the Soviet Union, freedom is 
not for Russia, freedom is not for Eastern Europe. That type of 
skepticism which we heard from our friends from the West is 
once more and more often asked of the last years about Muslim 
countries, about Arab countries, about countries of the Middle 
East, about Palestinians, and more and more we heard about 
there is not one Muslim country in the world which is 
democratic; maybe it is simply not appropriate, it is simply a 
different civilization.
    I hear that today it is easier to answer to skeptics than 3 
or 4 months ago with what happened in Iraq during elections, 
what happened in Lebanon with 1 million people demonstrating, 
what happened in these weeks in Cairo when so many dissidents 
are ready to raise their voices shows that this questions is--I 
hope, is at least partially answered.
    But the second question is no less important. The current 
debate today is one focused on whether there is a real critical 
connection between democracy somewhere and security here. And 
more and more, the question of elections is used as a source of 
skepticism. Just now leaving Israel, a couple of articles that 
you see that the elections are bringing the extremists to 
power. This is the way how terrorist groups can come to power. 
And maybe democracy can be even dangerous for security. And so 
that is why in my book, I propose this town square test and why 
I believe that American administrations use this test.
    An election, not by itself, is democracy. Free elections 
and free society, that's what has to be the aim. And free 
society is a society which passes the town square test. That a 
peasant can go to the center of the town square, express his or 
her views, and not to be punished for this.
    So if you look at every place where extremists are coming 
into power as a result of elections, it is always that society 
is still a fear society. There are still a lot of restrictions. 
You have elections in a society where democratic institutions 
are built of standards and developed around the process of 
developing, it is mainly because a big influence of the 
results; because when given the real choice, free choice to 
choose between living in freedom or living in fear, people 
choose to live in freedom. And that's why, if you have the 
opportunity to choose between elections or building a free 
society and elections in then the process, we always have to 
understand that the most important thing is to build the free 
society, to help to build the free institutions of the society.
    And here is the question, the linkage. What is the role of 
the free world? First of all, to bring moral clarity, to 
understand that for the free world, the real partners are not 
the dictators but the people, the dissidents who are speaking 
the truth, who express the desire of their people to live in 
freedom.
    What has been done in the last few months by the President 
of the United States of America cannot be underestimated. The 
very fact that the leader of the free world speaks clearly 
appeals to the dissidents, to the democrats of the world has 
tremendous influence. I remember the days when I was in a 
Soviet prison and when President Reagan was speaking about the 
evil empire, how much hope it gave to all of us, how much 
strength it gave to us. I remember the stories of my friends in 
solidarity when John Paul II was speaking to them.
    That is the power of the free world speaking with moral 
clarity, supporting the dissidents. And, with all this, with 
all this position taken by the United States of America, you 
cannot understand the changes which are happening in the last 
month as to whether in Ukraine, whether in Lebanon, whether in 
Egypt, and then speaking about Iraq.
    The second level of linkage are programs supporting 
democracy. And here we see some progress and here we see a lot 
of efforts and institutions which start dealing with education 
for democracy, which start dealing with the support of 
different efforts to build a civil society. Still, it's not 
enough. When even today, today I hear from the dissidents in 
Iran the complaint that they have problems in finding support 
to find broadcasting, like we dissidents enjoyed in the Soviet 
Union the broadcasting of the free world over the Radio 
Freedom.
    And if today the price of this support is less than the 
price of one airplane, and to see the influence of this support 
when Iran--letters are written--I heard from many people, Iran 
more and more reminds me today of the Soviet Union in the last 
months of its existence, when almost everybody was double 
thinker, when almost everybody had balance about this imaging. 
And there's the time to support--to encourage and support 
building the civil society. And also the most important level 
is direct linkage, direct linkage which then was a critical 
issue of the relations between the East and West after the 
Helsinki agreement when directly the question of human rights 
was connected to all the projects of economical, culture, 
political relations with these countries. Everybody who knows 
the story of Saad Eddin Ibrahim, the dissident also from Egypt, 
who was released after 3 years because of direct linkage of the 
United States of America made between the relations between 
Egypt and the fate of the dissident is a very important example 
of this narrow but very powerful usage of this linkage.
    The fact that where in the towns of the Soviet Union the 
fate of the dissidents practically never come to a reasonable 
conclusion in the Soviet Union was in the minds and the 
decisions and the resolutions of this House and administration, 
and today most of the dissidents of the Middle East, their 
names are not even known, that shows that a lot can be done in 
this direction.
    And just now we are dealing with the very important issue 
of [Unintelligible.]. As you probably know, he resigned from 
the government, but it doesn't matter whether you are for the 
way how it was implemented or not. I think we all agree that 
the most important thing is that, one, that what will emerge 
either will be a democratic society and not a terrorist 
society. And the most important question for all of us must be 
whether education of incitement in schools in Gaza will 
continue after we leave it; whether Palestinians will continue 
living in awful conditions in refugee camps, or whether this 
will liberate them. But that free economy will be built there, 
or, as in the times unfortunately of Yasser Arafat, there will 
be a free hand to destroy, or we will be given a free 
government civil society. And, of course, whether terrorist 
organizations acting there today will be dismantled or they 
will become even stronger.
    These are the most important questions. And the course of 
the free world of the United States of America, the course of 
Europe, has to be whether you are helping the Palestinian 
society--whether you are helping to defeat people in the 
Palestinian Authority to live more free lives or less. And the 
more free lives they have, the more security we will have in 
Israel and you in the United States of America.
    These are my initial remarks. And I will be glad to answer 
your questions after this.
    Mr. Shays. Thank you, Mr. Sharansky. I would like to point 
out that you were arrested and in Soviet prison, sentenced to 
13 years in jail. You spent how many years, sir, in jail?
    Mr. Sharansky. Only 9, because of the pressure of the 
United States of America.
    Mr. Shays. Well, you are a true hero, and it is a privilege 
to have you here.
    [The prepared statement of Mr. Sharansky follows:]

    [GRAPHIC] [TIFF OMITTED] T2706.009
    
    [GRAPHIC] [TIFF OMITTED] T2706.010
    
    [GRAPHIC] [TIFF OMITTED] T2706.011
    
    [GRAPHIC] [TIFF OMITTED] T2706.012
    
    [GRAPHIC] [TIFF OMITTED] T2706.013
    
    [GRAPHIC] [TIFF OMITTED] T2706.014
    
    [GRAPHIC] [TIFF OMITTED] T2706.015
    
    [GRAPHIC] [TIFF OMITTED] T2706.016
    
    Mr. Shays. Mr. Al-Alusi.

                  STATEMENT OF MITHAL AL-ALUSI

    Mr. Al-Alusi. OK.
    Mr. Shays. Welcome, my friend.
    Mr. Al-Alusi. Thank you. Mr. Chairman, this is really a 
great honor for me to be a witness before this subcommittee. 
Thank you so much for this opportunity. I do agree with many of 
the things Mr. Sharansky has said. But as an Iraqi politician, 
I have that reality. We do now have a free Iraq. We have 
problems, this is true. We have a huge problem. You have to 
understand, after Saddam Hussein, this kind of regime, 
dictatorship, killer of the innocent, killer machines, we have 
a problem. We have problems, but we also have the new Iraq. No 
discussion about it. The election day was the Iraqi great day, 
the Iraqi happy day.
    But I agree with you, sir, when you say that the 
extremists, that they are using the democracy. They are smart 
and they are trying to use it as the tool to have a control of 
our society. I agree with you because the terrorists, the old 
way of the terrorism really has been changed. They are well 
organized, they have government beside them, interior agencies, 
and they are trying to use our democracy now to get control and 
to come back again.
    I have started in Iraq to work as the Director General by 
the Iraq education. And from this experience, I know very well 
how the Ba'athists, they are trying to get the power in Baghdad 
again. Always we have heard many things about the 
deratification, but always I can say from my experience, from 
my knowledge, from the information that we got, from the facts, 
the news is totally different and far away from the reality. 
This is a fact.
    I would like also to say it is impossible to split between 
democratic peace and human rights. Some people, they believe 
they are democrat but they don't need to look for peace or they 
don't need to look for humanity rights. This is really a 
problem in the Middle East. But we need time and we need the 
real support, moral, political, and financial support for the 
liberals in the Middle East. And this is something really 
difficult now.
    I mean, it is very painful when we see how the extremist 
parties which power, which mechanisms they have. As an example, 
they have TV channels, radio channels, many newspapers in 
Baghdad today. They go and the Islamic extremist party and the 
other extremist parties, the Ba'ath party. They have more than 
100 newspapers. Maximum, the liberals newspaper in Baghdad, 
five: 1 to 20. They have many TV channels, many radio stations. 
No liberalist party in Iraq or in the Middle East have a TV 
channel or free radio. This is the fact. And Iran is our 
neighbor and Baghdad is the Iraqi neighbors.
    But Iran is not a democratic country. Even if they have a 
parliament there. The problem, I do believe that we need time 
to feel this welcome, but also we need to work very hard to 
make it work. There is a very important point. Again, we cannot 
split between democratic, human rights, and peace. But somebody 
must try to teach us that we don't need peace in the Middle 
East or we cannot start to build the peace between Iraq and 
Israel because of somebody. He has to start first; after that, 
we can think about it.
    This kind of message, the strategy, or Palestine 
organization strategy, it is against the Iraqi strategy. We 
were more than 50 or 60 years a hostage of every strategy in 
the area. The area, we in Iraq and you see in Israel, all of us 
we need a clear signal that we are for peace in the area, and 
we can start between Iraq and Israel. And this will help the 
Palestine people to be more realistic, to understand the real 
politics of the problem, the pragmatic way in the politics.
    I believe the era of terrorism and the reforms has just 
started in the Middle East. The terrorists, they are an 
alliance, Syria, Iran, Hezbollah, Jihad, Hamas, Ba'ath party, 
al Qaeda, they are an alliance. They have the same political 
goals, they have the same mechanism. It is now that our time to 
stop to think about it. We need alliance between the democratic 
countries where they have suffered very or they have paid a 
huge price I believe is the right way to have the strategical 
relationship between the United States of America and Iraq in 
the alliance against the terrorism, the terror between Iraq, 
Israel, United States, Turkey, maybe Kuwait, and the United 
Arab Emirate.
    Whatever the people can say, we know the news, always 
pushing some kind of news coming from Baghdad. It might be 
truth, it could be truth, but there is also another side. The 
Iraqi people, they are free now. This is the main point. Let me 
say it also here, Mr. Chairman, thank you, America. Thank you 
so much for everything.
    Mr. Shays. Thank you, Mr. Al-Alusi.
    [The prepared statement of Mr. Al-Alusi follows:]

    [GRAPHIC] [TIFF OMITTED] T2706.017
    
    [GRAPHIC] [TIFF OMITTED] T2706.018
    
    [GRAPHIC] [TIFF OMITTED] T2706.019
    
    Mr. Shays. We have behind you, Mr. Sharansky, Mr. Dermer. 
And he is co-author of ``The Case for Democracy.'' And if he 
would like, the subcommittee would welcome him to join this 
panel. And we would swear you in, if you wanted to participate 
in the questioning. Would you like to participate? If you don't 
mind standing, welcome. Just raise your right hand, please.
    [Witness sworn.]
    Mr. Shays. Thank you. Welcome.
    We are going to start out, I just would also recognize that 
Mrs. Maloney has joined us as well. I recognize Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. And again 
I want to welcome the witnesses. And Minister Sharansky's 
presence here is important because we recognize the 
contributions that you have made as a dissident, someone who is 
willing to put himself on the line to help achieve a statement 
of moral clarity. And I think that everyone in this Congress, 
whatever their particular view of the situation in Iraq, 
respects that greatly, because it is individuals such as 
yourself who have had a very powerful statement of moral 
clarity which helps to bring about political change.
    I think that when we are speaking about Iraq, though, and 
the particular problems that we have here in the Congress is 
with respect to the role of military intervention in bringing 
about ``democracy.'' now, the United States did not intervene 
militarily against Russia to help encourage the kind of changes 
that was created or that were created. How do you see the 
difference between what the U.S.' policy was with respect to 
the Soviet Union and what the U.S. policy--where they'd they 
did not use military intervention, and the U.S.' policies in 
Iraq where we have used military intervention? Do you make any 
distinction there at all?
    Mr. Sharansky. Well, thank you for your question, 
Congressman. Of course I make a distinction. As in our book, 
anyway, we believe that all the totalitarian regimes are very 
weak from inside because they have to spend all their power on 
controlling their own people, the minds of their own people to 
keep them on the course of control. But it is a lot of power 
energy. In fact, and if they don't support it by the external 
sources of power, they will become weaker and weaker. And that 
is why it gives a great challenge to democracy simply by 
putting in place effective forms of linkage between economical, 
political, social, cultural, financial relations with these 
countries and the question of human rights. And these countries 
can become strong enough to stand in the free world only if 
they have peace for a long period with the free world.
    Yes, the regime of Saddam Hussein became very dangerous, 
but we should not forget that in the 1980's, many countries in 
the free world believed that it is in the interest of these 
countries that these regimes exist, and you supported this 
regime.
    Mr. Kucinich. But may I ask, Mr. Sharansky, what about the 
regime of, say, of Kruschev or Brezhnev? I mean, we did not 
intervene militarily against Russia.
    Mr. Sharansky. I have to say that this regime became so 
strong because there was a policy of appeasement toward this 
regime beginning from the 1930's and 1940's. And no doubt there 
were periods of that regime, Soviet regime, when the world had 
no other way but to cooperate. Like in 1943, Churchill and 
Roosevelt could not stop cooperating with the regime, starting 
at the times of war against Hitler. But in 1953 and 1963 and 
1973, the free world continued cooperating and in fact helping 
this regime to survive.
    Now, the moment this regime was becoming so dangerous and 
so aggressive that sometimes the free world had to respond. And 
I don't have to remind you what happened in Cuba, the times 
when they sold missiles over and then the Soviet Army sent the 
troops--not their troops, Cuban troops to Africa. At the same 
time, the very dangerous situation and they were sending troops 
to Prague, Berlin, Hungary, and they take special recruit. And 
of course it was dangerous moments, but there was no direct 
threat to the United States. And they believe that as long as 
there is no direct threat to the free world, the free world has 
to use the policy of linkage and to undermine and to weaken 
these regimes. And it can be very successful as it was in the 
case of the Soviet Union.
    What happened with Iraq--well, who I am to speak in the 
presence of the hero of this nation here of Iraq, Mr. Al-Alusi. 
But my personal opinion is that if the freedom of the United 
States of America were challenged by the world terror and the 
President of the United States accepted this challenge--he 
didn't say that we are now fighting this one or another 
terrorist group; he said we are fighting against the world 
network of terror.
    Sooner or later, America would have to deal with the regime 
of Iraq because Saddam Hussein--and here I am speaking from my 
own experience in the Middle East. The regime of Saddam Hussein 
gave a lot of legitimacy, a lot of power to all the terrorists 
in the Middle East. The very fact his regime was opening the 
way to the free world, has been doing it for tens of years. 
Here was a regime which was openly supporting every family of 
suicide bombers. There was a big opportunity, President Saddam 
Hussein is giving $10,000 to every family of a suicide bomber. 
It's not the problem of the money; it's the problem of 
encouraging them, of telling them that they knew that they have 
their motherland, their country, their regime, which is behind 
them. So if you are really having a--you are challenged with 
this world war of terror and you want to respond, you have to 
deal with this regime.
    Mr. Kucinich. Mr. Sharansky, first of all, you demonstrated 
personally in Russia through the power of your courage that one 
person could take a stand. And, again, I want to state that 
every one of us appreciates the courage that you showed. And I 
think that was one of the things that helped to lead to change 
in the Soviet Union, that caused the Soviet Union to collapse: 
Eventually, it could not keep people like yourself from stating 
through their own sacrifice the truth of the conditions. And 
what I'm simply stating here is that how much more does that 
power of moral force of an individual trump the power of 
military intervention? It's something that I think is worth--
from our standpoint, is worth looking at.
    So thank you for your testimony. And, Mr. Chairman, I again 
want to thank you for making possible for the witnesses to be 
here.
    Mr. Shays. I thank the gentleman.
    I see a significant difference between Iraq and almost any 
other country, because basically having gone into Kuwait, 
having an agreement but not a peace agreement with the forces 
that got Saddam out of Kuwait, given his absolute insistence in 
a sense that he wanted us to think that he had weapons of mass 
destruction. But the challenge we have in this country, 
obviously, is there were no weapons of mass destruction by that 
period, and we have to accept the fact that the Duelfer Report 
says that, means that you have a country that is--and some 
debate in here with the fact that we then sent our troops to 
Iraq.
    I wish we had done it not under the strong belief that 
Saddam had weapons of mass destruction, just that we needed to 
close the chapter of 12 years of fly zones and the ambiguity of 
not having a finality to our getting Saddam out of Kuwait. But, 
the reality is we are there. And I would like to ask these 
questions. And I would love--Mr. Dermer, I also would know that 
you would be speaking as an individual, and we got you by 
surprise and you didn't get to check with other higher 
authorities about. So we know that you will choose your words 
carefully. But it is an honor to have you here as well.
    I would like each of you to tell me, how should the United 
States promote democracy in the Middle East? What's 
appropriate? What's not appropriate? How do we promote 
democracy? What's required for us?
    Mr. Al-Alusi. Well, this is really a good question. I mean, 
in Iraq, we don't have Saddam and the Ba'ath regime. And we 
have started the election. Can we change everything in 1 day, 
in 1 year, in 2 years? Many people they have a huge critic in 
Iraq politic, in your politic or in ours. I mean, the Iraqi 
politician. But they forget how many years Germany and France--
they are now in the very, very good position as democratic 
countries. They have forgotten, they took more than 40 years to 
establish the first step what we have done it in 6 months. We 
have done this very fast. But we need also to understand that 
the terrorists in Iraq, they are a part of the terrorists in 
the Middle East. They have their own agenda to stop any kind of 
change in the area. I mean, positive change, reforms and 
democracy.
    Here's the difference: Cannot--if the liberals, they will 
not have the help, the real help, moral, politic, and finance, 
they will have the problem in the area. If we don't make it 
really clear that we are not willing to deal with terrorists, 
it is not enough just to change the system. The terrorists in 
Iraq are really afraid, really afraid that 1 day we will see or 
we will say the United States of America, they have made the 
change; Saddam and the Ba'ath regime is not there. But the one 
now is Iran, because Iran they have very well understood, they 
can have this game, to win this game for a few million dollars, 
and they are pushing interior agency and many millions to win 
the game.
    The most important point, it is not only your 
responsibilities, it is our responsibility in Iraq, but it 
always better to make it clear: Iraq is a free country. And the 
Iraqi civility need to go through a dialog and agreement 
between Iraq and the United States of America.
    Mr. Shays. Do the Iraqis believe--and I will get to the 
other two witnesses. Do the Iraqis believe that we are being 
impatient with Iraq? Is there a feeling that we are asking too 
much?
    Mr. Al-Alusi. Not at all. No. We were glad to start. I 
mean, the United States of America, the forces are there. Let 
me ask us any Iraqi, what will happen if the American forces 
are not more in Iraq? The answer would be very soon from any 
Iraqi--any normal Iraqi: Iran will occupy it.
    Mr. Shays. I'm going to have a lot of questions here 
because I'm going to want to ask some other questions as well. 
So I want to get to the other witnesses. But I am told by 
observers, American observers, that Iraq has taken--the people 
of Iraq have taken naturally to the dialog of interaction. They 
like the political process, they like the debate, they like the 
negotiations. That this is something that in a sense isn't 
foreign to Iraqis. Is that something you would agree with or 
disagree with?
    Mr. Al-Alusi. No. I agree that we are very happy, more than 
happy to have this situation.
    Mr. Shays. I'm not even talking about happiness. I'm 
talking about that there is just this natural inclination, that 
this is not--even though democracy is something new and taking 
initiative is not something you did in Saddam's world, unless 
you wanted your head lopped off. But now, given this 
opportunity, there is this genuine excitement, but, more than 
that, a liking to the negotiations, the idea of trying to find 
a solution. That Iraqis are taking to it. That it's not 
something that is impossible for them to grasp. And I'm asking 
if you agree with that.
    Mr. Al-Alusi. Yes, I agree.
    Mr. Shays. OK. Mr. Sharansky, Mr. Dermer, could you just 
respond to what you would like to see the United States be 
doing to promote democracy in the Middle East? Not just in 
Iraq.
    Mr. Sharansky. Well, there are so many aspects, let me 
touch one of them. It will take. The big mistake of the Osla--
the Osla process was, the main effort was mainly how to have a 
stable regime. And if it means that we must strengthen 
dictatorship, we will strengthen dictatorship. And, in fact, 
the efforts of Israel, of the United States of America, of 
Europe, to for the very beginning of the process how to make, 
to stop a dictatorship which will bring us stability. I hope 
that this difficult lesson was learned, and now more and more 
people understand that we have to go forward supporting free 
society and then we get stability.
    But if we go in the opposite order, we will get only more 
terror. What it means today in----
    Mr. Shays. Can I just--so I'm following you. What I'm 
hearing you say is that we may have to tolerate instability 
ultimately to get to stability through a democratic----
    Mr. Sharansky. Yes. This fear that the democracy of one 
freedom brings more than stability in the world, if you look a 
little bit longer and you see how this so-called stability 
brought by strong dictator is turned into more terrorist 
attacks, more hatred and more world war. And it's clear, why? 
Because dictators inevitably need external enemies for their 
own stability.
    And then we can extend something also process, which in 
advance was planned in a way that we decided--the free world 
decided that if Yassar Arafat needs to impose the restrictions 
of freedom, let him do it. But I'm saying that definitely with 
new leadership, we have better chance; but it will succeed with 
better chance only if our enemy again will not support this 
leadership by all means, and that is would not put 
restrictions--will not demand on the democratic process.
    Today, when the big efforts are taken, very positive 
efforts to give economical assistance to something, it is very 
important that the result of these efforts will be more free 
economical life for something, and not more control over the 
economy in terms of authority by their leaders. The same has to 
be said, also, for terrorist organizations. This readiness to 
tolerate the coexistence with terrorist organizations is a 
very--we can see how the terrorist organization are making some 
efforts to strengthen themselves again.
    From the very beginning of the process, the demand must be 
very clear, the linkage must be very clear, not cease-fire with 
the terrorist organizations, but the struggle against terrorist 
organizations.
    Mr. Shays. My time has run out, but if Mrs. Maloney will 
just allow me to ask Mr. Dermer to respond to this as well.
    The first time we met, you were working with Mr. Netanyahu, 
I believe. And I would say to you that he was the first one who 
articulated in a way that I paid attention to the fact that you 
have--you can't have peace without democracy, ultimately. So he 
was kind of the individual that was saying this in a way that 
at least caught my attention. I know others were saying it 
before. But what would be your response about the role of the 
United States in promoting democracy in the Middle East?
    Mr. Dermer. Well, the first thing I would say--and I thank 
you for allowing me to testify, even if it was very unexpected.
    The first thing I would say is I understand exactly what 
the problem is. And one of the disadvantages that I have had in 
trying to understand what Natan Sharansky was saying to many 
people for many years is that I was raised in a free society. 
So to live under a regime where you are constantly afraid to 
say what you want is something that was totally foreign to me. 
And to understand the mechanics of how such a society works is 
very hard for me to understand. So Natan was saying for years 
and years and years, and it took me a long time to understand 
the concept of what he was saying or thinking behind it. When 
you see a suicide bombing attack and then you would see 
thousands of people in the street celebrating it, you wonder if 
we're talking about democracy; these people can be democratic?
    And what I understood when I listened to him in trying to 
understand the problem is that you have to understand what type 
of society a fear society is. When you have a regime that 
totally determines what people do, whether they have a real 
component to go into Israel, whether they're going to receive 
aid from international donors, whether or not they're going to 
be able to participate in business in any way because there is 
a monopoly over all basic industries, you see; but in order to 
survive in that type of society you have to demonstrate loyalty 
to their elite. It doesn't mean that the images that you're 
seeing on television is what is really going on within those 
societies.
    So I think the most critical thing that I learned and that 
I think would help, moving forward, is to focus as much as 
possible on increasing the degree of freedom within that 
society, to decreasing the dependence that people within the 
society have on the regime. It doesn't matter if they're 
dependent on a social network of a terrorism group or whether 
they're dependent on a regime; the most important thing is to 
make them independent and to build civil society.
    I think if we recognize that's what the focus has to be, to 
make the town square as free as possible, to build those 
institutions as much as possible, constant focus on asking 
ourselves a simple question: Is there more freedom within 
Palestinian society today than there was yesterday, or is there 
more freedom in Iraq than there was yesterday, or any country 
that you look at? Just ask yourself that question. Not whether 
we're closer to elections, not whether or not this particular 
policy has been advanced or not. Is there more freedom for the 
individual in this society than yesterday? If you do that, then 
I think that you're going to be moving in the right direction.
    As to specifically what the United States can do, I think 
that Natan has been arguing that for many years, and he wrote 
in the book, is to the greatest degree possible to link the 
relations that you have to these countries to how they treat 
their own people. This is really the revolution, if I recall 
the Sharansky document. It is very different than the 
conventional approach to foreign policy. The conventional 
approach says we should treat country A based on how country A 
is treating country B.
    And here is what Natan has been saying for many years and 
what the dissidents in the Soviet Union have been saying for 
many years is that we need to treat a country based on how that 
country is treating its own people. That is the lesson that I 
think if we keep in mind all the time and pressure the regimes 
to give more human rights and more freedom to their people and 
use all the tools you have--political, moral, financial, 
whatever you have in order to push in that direction--then I 
think that things will be moving in the right direction in 
terms of democracy.
    Mr. Shays. I am loving this panel. Thank you very much.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. And I'm delighted to 
welcome the distinguished panelists.
    Mr. Al-Alusi, you have lost two of your children and your 
body guard, and there have been nine assassination attempts 
against your life. We appreciate your great courage, and we 
thank you for being here. I regret that the violence seems to 
be increasing in Iraq, at least as it's reported in our papers.
    And, Mr. Sharansky, it is rare to see or meet a living 
legend. I recall when I was on the city council in New York, a 
group of us named a street after you while you were still in 
prison. And I remember how effective and forceful your wife was 
as an advocate for democracy and for you. And it was thrilling 
when you were released and came to city hall and to the mayor's 
home. It was a great event.
    And I followed the wonderful contributions you've made to 
Israel. And I admire the way women are treated in Israel.
    And my first question really to Mr. Al-Alusi--and welcome, 
Mr. Dermer.
    And I want to know how important do you think is the role 
of women in the road toward democracy? I was very heartened to 
read in the paper that Kuwait just passed a law to allow women 
the right to stand for office and to become elected to office. 
Qatar recently passed such a provision.
    Many Iraqi women have come to this country, they are 
remarkable. We have visited with them in your country. Some of 
them I have corresponded with and some of them have been 
murdered. I have stopped writing them because it breaks my 
heart when one of them is murdered. And some of them have 
expressed to me their tremendous deep concern that the Sharia 
may be returned to the domestic law of Iraq. And I'd like your 
comments--and all of the panelists'--on the role of women in 
this fight for democracy. It is something I believe in very 
deeply for American women, and really for all women in the 
world. And I feel it is a very positive force, but I'd like to 
your thoughts on it.
    And it seems to me that women are targeted. There are so 
many of them that are murdered of your leaders. And if you 
could give us a review of where it stands. Is it a threat that 
Sharia will be returned? What are your comments?
    Mr. Al-Alusi. Thank you for your questions. Iraqi women, 
like most of the women in the Middle East, they are killed more 
than the men. In the Middle East, very high price because of 
the economy, because of dictatorship, because of some of--they 
call them new Islam, I would like to call them new Islam. That 
means the people, the extremists, very strong--the terrorists. 
But let me talk about Iraq.
    I was on election day on the street. Many Iraqi politicians 
also. The first hours, we didn't see that movement on the 
street. But after that, we saw something which is only in 
Europe. The Iraqi women started to move over the street. The 
first really movement to go to the election or to enjoy the 
election, that was the Iraqi woman. And the Iraqi woman made 
the real change in the next hours. If there is any kind of 
statistic, we would find the Iraqi women, they have enjoyed the 
election the first 8, 9, 10 hours. At 10 o'clock, after dark, 
they came. So they have played a very important role.
    The problem is that more than 50 percent from our society, 
of course, are women. And in Iraq they are about 55 percent. 
Those people, those kind of parties, they are against any kind 
of human rights in Iraq. And they are a part of a new strategy. 
They well understand to keep from the Iraqi society, to make a 
huge difference in this society in Iraq, that is the girl can 
go for in Iraq. That is why, and they are paying a very high 
price.
    But now look in the government, they are very happy, very 
happy and proud to have 50 percent. I am proud to have Iraqi 
women. You have to like the Iraqi women, otherwise you will be 
not in the party, otherwise they will punish you. This kind of 
message is not officially, but anyway, the Iraqi woman are 
willing to be free, and they have a very important role, and 
you have seen it in the election. We just need to push more in 
this direction.
    And education is important. They are trying to keep the 
Iraqi women far away from education and from the male role as 
employed in the government; and we need also to help in this 
direction. I mean, everything is new in Iraq. We just starting 
today, and we just starting to feel democratic. This is the 
fact.
    Mr. Chairman was talking about weapons of mass destruction. 
It is truth to know you didn't find it, or nobody has found it. 
But also truth, we are not talking about an atom bomb, we are 
talking about chemical weapons. To make chemical weapons, you 
don't need huge industry, you need a small level, you need the 
know-how and the willing to use it. Did Saddam have the know-
how? Yes. Did he get the power to use it? Yes. He has done it 
more than 80 times. And many Iraqi women, because of this 
chemical weapon, they have paid a very high price. More than 80 
times he has used it.
    Mr. Shays. Let me do this. I'm going to encourage the 
panelists to give a little shorter answers because we want to 
cover a lot of territory, and you will be here late at night, 
and we do have a second panel. And you have so much to say, and 
it is all so important, but we want to make sure we get these 
questions in.
    Do you have other questions?
    Mrs. Maloney. I would just like to ask Mr. Sharansky, do 
you believe that ultimately reform will come from the top from 
the government, or from government reform initiatives, or by 
popular demand by the grass-roots level? And I would ask Mr. 
Dermer also to comment.
    And what incentives, punishment, does the United States 
have to influence other nations toward freedom and for 
democracy for their people?
    Mr. Sharansky. Well, thank you, Congresswoman, for your 
remarks and for your question.
    No. Change is always coming when there is words of 
dissidents, those who are ready to speak open and loudly, where 
there is determination of the free world to support these 
dissidents, and where there is practical policy over linkage in 
their relations with the free world with the leaders of the 
country for which dissidents are speaking.
    Now, no doubt for the main reason for changing that is the 
desire for the overwhelming majority of people to live without 
fear. To get rid of this awful double-think where you have to 
say one thing and think another thing, and this desire to live 
without fear, that is what brings the change.
    But no doubt, it could be more painful or less painful, it 
depends on the leadership; and it depends to what extent the 
free world is ready to keep the leadership responsible.
    So if today we are optimistic, we are cautiously optimistic 
about possibilities in the Middle East in connection with 
Palestine, it is because they have new leadership, but also 
because the free world, and of course the United States of 
America, demonstrates determination to connect their policy 
with the creation of democratic reforms.
    If I am very cautious of this optimism, still we can see 
how this desire to connect the policy in relation with this 
leadership with the creation of democratic reforms is not 
otherwise long the voice among many others who want to go back 
to the policy of appeasement.
    Mr. Dermer. As to your first question about the rights of 
women, I think that would be----
    Mr. Shays. That says we have a vote in 15 minutes.
    Mr. Dermer. I see. I haven't been cutoff, right? The 
sandman isn't coming from somewhere around here.
    Mr. Shays. It means we have one vote.
    Mr. Dermer. As for the rights of women, I think that's an 
excellent barometer for the degree of freedom in a society. And 
we chose in the book ``The Town Square Test,'' could you walk 
into the town square without fear of arrest, imprisonment or 
physical harm? But I think probably something that would come 
in a close second is how women are treated in society to really 
let you know the precise degree of freedom; I mean, even in 
societies that allow women to participate in elections, that's 
going to be much freer than a society that doesn't, and the 
individual rights that they have as well.
    As to the second question, what needs to be done? I want to 
get back to something I said earlier about what I call the 
``Sharansky Doctrine,'' and that is, I know everyone is usually 
focused on the question whether or not you engage or you 
confront a given regime, and I think less focus is paid to what 
you are engaging them on or about and what you're confronting 
them about. And what Natan has been trying to argue for years 
is that when you engage them on the issue of how they treat 
their own people. And if that becomes all of a sudden the 
policy of the United States and other democratic nations, that 
whether we're going to engage or confront you is going to 
depend on one answer, is how are you treating your own people. 
And you will get more aid from us and you will get more 
political support and diplomatic support, financial support, 
whatever, if you give your people more rights, and you will get 
less if you don't.
    And so to get beyond the engage confrontation, I suppose, 
dynamic and more focused on what exactly you're engaging them 
about or confronting them about. And if we start to focus on 
how they're treating their own people and use all the tools at 
their disposal to encourage a democratic change, I think that 
would be the most effective; and I think it will most likely 
come from the ground up only because the top, at least the 
current top in this region are not people who have a great 
faith in democratic ideas or reforms. So I think it will 
probably come from the bottom up.
    Mr. Shays. Let me acknowledge that we have Mr. Higgins who 
is here, as well as Mr. Van Hollen, and also Mr. Dent, and 
they're free to jump in at any time. They told me they don't 
have specific questions. And we may try to finish up so you 
don't have to wait after voting and you can go on your way 
here.
    But I would like to have each of you respond to this 
question. What would you say to the skeptics who basically say 
that the Islamic faith and democracy are not compatible? That's 
a key question that we need to resolve. Is the Islamic faith 
and democracy compatible? Are the skeptics wrong? Do they have 
some truth to what they say? Mr. Dermer or Mr. Sharansky or Mr. 
Al-Alusi.
    Mr. Al-Alusi. I believe that Islam is compatible with 
democracy. But an understanding of the new Islam, radical Islam 
is completely out of with the main message of all religion, 
including variant Islam. In the Quran it states that if you 
kill one being, it is as if you have killed the world. But now 
we have people who act in the name of Islam throughout the 
Middle East who are killing people in the name of Islam. That's 
why I do believe we have to split between religion and state. 
And those people that are not Islamic and the formation that 
they got is the not the real Islam because there is no 
difference. I mean, just read it. And as we say it in Iraq, 
Solat, Ingil and Quran, it is very difficult to find the 
difference between them. No one from these three religion will 
have allowed anyone to kill somebody. How they can say in the 
name of God----
    Mr. Shays. Let's get beyond the killing issue, though. 
There aren't a lot of Islamic regions that are democratic, 
there hasn't been a real history of democracy in the Islamic 
world. And is that an indication that they aren't compatible, 
or is it just an indication that there hasn't been any movement 
for democracy? And we're going to know this answer pretty soon, 
but let me ask you, Mr. Sharansky.
    Mr. Sharansky. Well, when I was recent to Russia, I 
discovered that Russian people for several years lived in 
tyranny, and that is part of their mentality, part of their 
culture, they don't want to live in freedom. And you can read 
the addresses to President Truman that Japan for 7 years never 
had a democracy, and it is against their culture to live in 
freedom.
    And I heard the last year many times responding to my 
arguments that Islam--people of Islam live in different 
religion and different mentality, and it is against their 
culture to be free. I think all these remarks are racist 
remarks. I believe that all people who want to live in 
accordance with their faith, in accordance with their 
tradition, in accordance with their mentality and history and 
so on, they all, when given the choice to live under constant 
fear, to be punished by a totalitarian regime, or to live 
without this fear, will choose to live without this fear.
    That's why all these statements of some American 
journalists who are saying that people in Iraq love Saddam 
Hussein and this regime, when Saddam Hussein killed 1 million 
of his own citizens and he was torturing people, remind me of 
some of the statements of the so-called liberal guests who 
would come to the Soviet Union at the top of the repressions as 
are saying look how Soviet people love Stalin and his regime. 
We have to believe, I think it is very important for humanity 
to believe that all the people were born to be free and deserve 
to live free.
    Mr. Shays. Thank you.
    Mr. Dermer. I'll tell you, one of the contributions of Mr. 
Dermer is that he got me to recognize that how I was 
pronouncing your first name was not correct, it is Natan, not 
Natan.
    Mr. Sharansky. It's OK.
    Mr. Shays. It may be OK with you, but not me. Mr. Dermer.
    Mr. Dermer. I would say that if we were having this 
conversation 300 or 400 years ago, people would say that 
Christianity is incompatible with democracy; and we know that's 
not the case. I think what--not to mention about Japan is an 
excellent example, because no one gave much of a chance for the 
Japanese to have a democratic society. Their culture was much 
more inimical to Western ideas than Arab culture, Islamic 
culture that is. And there were many reasons I think that they 
had to--when they first came up with the idea of democracy, it 
took a letter of around four Japanese characters together to 
make sense of it because they had no concept of what democracy 
was.
    But at the end of the day, what Sharansky is arguing is 
that when people are faced with this choice between fear and 
freedom, they're going to choose freedom. It's not because 
they're Jeffersonian democrats, it's because they don't want to 
live their lives in fear. And when we say is Islam compatible 
with democracy, I think the majority of people everywhere don't 
want to be afraid. Whether or not you force people to make a 
choice--let's put it this way: If you force people to make a 
choice, choose Islam or choose democracy--which I think is a 
false choice--well, they will probably choose Islam. But in the 
history, as I understand it, of Christianity's move toward 
democracy, they actually found the seeds of democracy in their 
own faith. John Locke did this, and many other great Christian 
thinkers at the time of the development of democracy. They 
weren't anticlerical, they actually found the seeds of 
democracy in their own faith.
    And I think that the process will probably start happening 
within Islam. And the ascending force in Islam today, which is 
this militant Islamic force that is very hostile to the 
democratic way of life, can be replaced in a rather short 
amount of time by a different force within Islam where Muslims 
start seeing within their own faith the seeds of democratic 
change. And I think that process is happening because of what's 
going on in the region now.
    Mr. Shays. We have about 4 minutes to vote.
    Mr. Ruppersberger, do you intend to come back and ask 
questions? Because I may keep this panel if you decide to come 
back after the vote.
    Mr. Ruppersberger. I think so. It depends.
    Mr. Shays. Well, let me do this, if you don't mind. We are 
just going to ask you to stay. And there just may be one or two 
other questions. Is that a problem for any of you? We're going 
to adjourn and we will be back. We are recessed, not adjourned. 
Good grief.
    [Recess.]
    Mr. Shays. This hearing is called to order.
    When power was transferred to the Iraqis in June of last 
year, I went in August to visit, and then I came back to the 
United States and met with Condoleeza Rice and about four other 
Members of Congress. And she was talking about being patient 
with Iraq, that this was a new democracy. And she reminded us 
of our Declaration of Independence in 1776, our Articles of 
Confederation in which we fought to sustain the 13 colonies in 
a Federation, and then in the Constitution of the United States 
we created a Nation. And I'm thinking, I get it Condi; 13 
years, I understand. And then she looked at us and she paused 
and then she said, in that Constitution I was three-fifths a 
person and a slave. And I thought, wow, what an incredible 
message to Americans not to be arrogant with the struggle that 
exists for any new democracy.
    It took us, as you know, a Civil War to sort out a failure 
in our Constitution, and we're still resolving some of those 
issues. So patience, obviously, is necessary.
    But in the Arab Human Development Report of 2004, there is 
on page 71--they talk about democracy and the Arab region. And 
then they have the photograph of the one election, and it's the 
concept of Hitler gaining power in a democracy and then taking 
over the Nation and the concern that there could be one 
election in which democracy would basically become the victim.
    So what needs to happen, in your judgment, in Iraq? Does it 
have to be a strong statement in the Constitution? What ensures 
that there won't be a takeover by extremists that will 
ultimately mean that democracy dies in Iraq? Everybody keeps 
looking at you, Mr. Al-Alusi, and you can go first. But if you 
want time to think about your answer, I can have Mr. Dermer go 
first.
    Mr. Dermer, you're going to go first.
    Mr. Dermer. You put me on the spot twice in one session.
    I think the German example is a very good example. In fact, 
we addressed it in the book. And the question I think we have 
to ask ourselves is what was the problem with that election in 
Germany? Was the problem the very fact that the Nazis were 
elected in a free election--that was actually was about as free 
an election as you're going to have in one of these--and this 
society was problematic at the time for other reasons, but it 
was a free election. Was the problem that the Nazis were 
elected, or was the problem that after they were elected and 
then they decided to suspend and destroy democracy within 
Germany, that the world did nothing about it?
    I think most people would understand that it's the latter 
and not the former. And I would say that is a model for how you 
can avoid the problem of one man, one vote, one time, that 
you're talking about; and that is, if the world takes a very 
clear stand in the free world, led by the United States, that 
you will not tolerate any type of society that is not willing 
to tolerate dissent, and you make it clear in the quest for 
international legitimacy that any new government will have--
will be dependent on that government giving their people basic 
rights, well then you are unlikely to face this problem that 
you faced in Nazi Germany.
    And what Natan was arguing for many years is that the 
chances of something like that happening, one man, one vote, 
one time, will be minimal if the focus is on building a free 
society and not on rushing to elections; that if you get 
conditions of the town square in place, that the chances of a 
regime that is hostile to democracy getting elected are very 
small. And if it would happen on that--it does happen 
occasionally, maybe once every 20 or 30 years--if the world 
takes a very clear stand and says we're not going to allow you 
to crush dissent within your country, you may rule it according 
to how you see fit, but as long as you preserve a basic right 
of dissent and to change government in the future, if the world 
takes that stand, then I think that the threats that a regime 
like Hitler's pose or other regimes in the region that would 
seek power through democratic means in order to subvert 
democracy I think would be taken off the agenda entirely.
    Mr. Shays. Mr. Natan Sharansky.
    Mr. Sharansky. Well, if the role of Mr. Dermer, when we 
were writing this book, was to explain my thoughts, I think he 
already explained it, with a little to add. He is doing, of 
course, much better than I can do. But I will only add to this 
in my country, when there is a big discussion of what will 
happen after the elections in July, there is a lot of fear that 
Hamas will become very strong. I have to say there is little 
surprise why Hamas can become very strong when the whole 
organization, which is really dealing with welfare for the 
people, this terrorist organization Hamas, and when the 
Palestinian Authority, its realizations with people, with 
citizens, is characterized first of all by its corruption. So 
there is little to expect from these elections.
    But if democracy is to come, building democratic 
institutions which guarantee freedoms of the individuals which 
decrease their fear, which improve their standards and their 
life, and at the same time is effective with fighting with 
terrorist organizations, then I think the chances for 
extremists to succeed in elections would become smaller and 
smaller and smaller. That's why it is very important to see 
elections as--free elections as the end of a process of a 
building a free society.
    Mr. Shays. Thank you. Mr. Al-Alusi.
    Mr. Al-Alusi. Yes. We are afraid from the Iranian influence 
in Iraq, not because the Shi'ite or the Sunni, they are a part 
of Iran, no, they are a part Iraqi. The problem is for more 
than 55 years, we didn't have any kind of political activity in 
Iraq. Most of the people there--all of them, they were outside 
of Iraq, otherwise they would be killed.
    So the Iraqi--very important part of the Iraqi opposition 
grew up in Syria and in Iran. They are cleric, they are Iraqi 
politician for sure; but at the same time, the Iranian and the 
Syrian intelligence agency, they were always trying to buy and 
to push them on people in our political parties.
    I am very afraid, not because we have now a little of this 
party, a part of the Iranian strategy, no; I'm afraid because 
they are thinking totalitarian, and I'm afraid from the second 
level in those parties. Nobody knows, even the leader of those 
parties, nobody knows how many people we do have from the 
Iranian intelligence agency in these parties. That's why I'm 
afraid that we got people who are a part of Iranian strategy 
playing game, using our mechanism in the democracy and take 
over in the power.
    Now we have the case in the security. Every Iraqi will 
agree to clean the system from the Ba'athist. They are very 
dangerous, they have done very, very bad things. But how to do 
it very quickly and radically in 2 or 3 months? We will have a 
vacuum. Who is coming to fill this vacuum? This is the main 
question. That is why we agree that none Iraqi people in the 
name of the Iraqi opposition, in the name of the Shi'ite or 
Sunni trying to take over, are using the democratic as Hitler 
has done it in Germany.
    Mr. Shays. Thank you. What I would like is for each of you 
to tell me what you would have liked to put--what question you 
would have liked us to ask--let me put it this way: Answer the 
question you would have liked us to ask, and put anything else 
on the record that you think needs to be put on the record, and 
then we're going to get to our second panel.
    Mr. Dermer. I guess I'll start this one off.
    I actually return to something you said earlier about the 
link between democracy and peace. And you mentioned that--and 
it's something that Netanyahu has also talked about for many 
years, and the question that has been very interesting to me 
over the last few years is what is the link between terrorism 
and democracy, and is democracy the antidote to terrorism? And 
we don't really focus directly on this in our book, but it is 
something that Benjamin Netanyahu has talked about for quite 
some time. And I think it is a very interesting question, 
because if the root cause of terrorism is not--let's say the 
root cause of terrorism--which many people believe is poverty 
or the root cause is desperation or the root cause is some 
deprivation of rights, political rights, national rights, 
social rights, then going and embarking on a process where 
you're trying to promote democracy in the region is not going 
to win the war on terrorism.
    But I don't think that the root cause of terrorism is 
poverty. If it were, then Haiti would be the center of 
international terrorism, and it's not. And I don't think the 
root cause of terrorism is a deprivation of rights. If it were, 
then Gandhi would have been a terrorist, and he wasn't; and 
Martin Luther King would have been a terrorist, and he wasn't. 
And there were many, many conflicts that you've had in history 
where there has been deprivation of rights and people have 
responded to them without resorting to terrorism. The French 
Resistance didn't use terrorism and didn't kill the wives and 
children of their German officers, and the Jewish underground 
movement to win the State of Israel, Jews were not blowing up 
buses in London to do so.
    So if it's not the product of desperation or the 
deprivation of rights, the question is what it is. And I think 
the root cause of terrorism, as Netanyahu has said, is a 
totalitarian mindset. And that mindset is brought under 
conditions of tyranny, where you can take a closed society and 
you can indoctrinate people and just pummel them constantly 
through state-controlled media and to indoctrinate them into 
some culture or some belief that puts some goal that is so all-
encompassing. That justifies anything, and there is no moral 
constraints.
    And once I think we understand--and I believe that this is 
the case--that the root cause of terrorism is this totalitarian 
mindset, the way that you actually defeat terrorism is by 
promoting freedom; because in a free society you simply will 
not have terrorism on a mass scale because people have a 
pluralistic viewpoint, they can hear other ideas, and they're 
not put in these pressure cookers. And that's why I think that 
this is important not only on tyranny, but also to win the war 
on terror, is the key critical thing here is I think to promote 
freedom, and in the end I think that will drain the swamps of 
terrorism in the whole region.
    Mr. Sharansky. I will use this last-minute opportunity to 
speak on behalf of Palestinian dissidents, because it so 
happens so that they're not on our panel. But I had to say that 
we're writing a little bit about it in the book, that while 
meeting some of those Palestinians, who are very strong 
fighters for civil society, who have very different visions 
than I have maybe about what kind of a future we want to have, 
but both of us agree that the main thing is to make sure that 
all of us live in democratic societies, a Palestinian 
democratic society and Israel.
    And when I was talking to them in the times of Yassar 
Arafat, I could always feel that they are the same dissidents 
as I am, with one difference, that--I resided in the Soviet 
Union, but with one difference: We in the Soviet Union knew 
that we could go to prison but the free world would be on our 
side. Here, we are facing a situation when these people can go 
to prison, but the message of the free world is to them, the 
only hope for peace is Yassar Arafat, and that's why I don't 
try to weaken Yassar Arafat. And that's why many of the doors 
of the free world were closed for them.
    Today when we have new hopes and new chances, let's not 
forget that it's not Palestinian leadership, it's democratic 
dissidents, those Palestinians who really believe and want to 
have civil society, they are our real allies. And that's why no 
concern about stability of the regime shouldn't undermine your 
readiness to support them and to stand for them. Thank you.
    Mr. Shays. Thank you very much.
    And Mr. Al-Alusi.
    Mr. Al-Alusi. I think we have seen many changes in the area 
that is the regime in the Middle East that is going to show us 
some kind of reforms or the willing of reforms. I do believe it 
can be only happen because there is a pressure from Washington 
and the United States in this direction. There are bad regimes, 
and they are just waiting with the hope that the policy in 
Washington will be changed.
    So please continue in this direction. The only way to have 
human rights in Middle East, pushing in the right reforms 
democratic. Without this we will never have peace there. And to 
make a decree of those terrorists, all of them they are aliens. 
And they are already aliens. Usually, just 50 years ago, we got 
organization as a terrorist, we have organization and aliens 
with regimes in the area. We are warned, we have to be very 
sure that they don't get a chance to win again and to have 
control of those areas. If America was in Iraq, we Iraqis would 
not have only one Iraq, we would have maybe five, maybe, Iraqs. 
And if Iran get control of Iraq, there is no peace in Middle 
East. And Middle East is not that far away from Europe and the 
rest of the world. Thank you so much.
    Mr. Shays. Thank you so much. If you don't mind, Mr. 
Ruppersberger would just like to ask a question of you all 
before we get to----
    Mr. Ruppersberger. I'm sorry I wasn't here, we have other 
hearings that I had to attend.
    First thing, we want to eventually try to direct families, 
younger generations. And my question really to you, Mr. Al-
Alusi, with respect to Iraq and how we can influence people in 
Iraq to look at democracy from a positive way.
    My first question, based on your conversations, do you feel 
that the average person in Iraq feels that we are trying to 
force them into a situation instead of helping them get to 
where they need to be?
    Mr. Al-Alusi. No, not at all. We are thinking--many people 
in Iraq, they cannot understand the message of what we have 
seen sometimes in the newspaper, as an example of de-
Ba'athification. The main problem with the de-Ba'athification 
are not the Ba'athists themselves, we can have control of them 
through time, but the education in Iraq should be changed. The 
way of thinking and the education should be changed. And to 
hear this kind of signal that the Secretary, Condoleeza Rice, 
she was asking to stop the de-Ba'athification, I cannot believe 
it at all; that is the wrong signal. I mean, the media they're 
playing now some kind of information which make the Iraqi not 
that sure. To help them in the democratic process, we have to 
find the change in the way of the Iraqi thinking to let them be 
free. Let me tell you, there is people that are very afraid 
from the Ba'ath and the terrorists.
    Mr. Ruppersberger. And they still are, which means our 
first priority, which is what we're doing, is to provide 
security. My point is that for us to be able to influence the 
Iraqi people to understand what a way of life would be like, we 
have to improve their quality of life, we have to take care of 
their infrastructure, make sure they have water that is not 
contaminated, make sure that we can provide their education. 
And then if they see that their life is better, it seems to me 
that is where we're going. I know that is our goal.
    My question to you, though, is where are we at this point? 
I know where your philosophy is. It's not about philosophy, 
it's about results. And what we need to do is to make sure we 
are also in the phase--and I've been to Iraq on numerous 
occasions and I understand--in fact, the last time I had a 
conversation with Ambassador Negroponte--he is no longer the 
Ambassador--about reaching the hearts and minds of the people, 
and it seems to me that's what we have to do. Because you have 
a different culture, you have different religions. I mean, 
there are a lot of issues there. But if you deal with the 
average person, it's like in politics, people vote based on how 
they feel that their families will be protected, their 
communities, their security, their education systems, that type 
of thing.
    Where do you think we are right now in Iraq as it relates 
to what I just said as far as building infrastructure, winning 
the hearts and minds of the people to understand that democracy 
will work in the end? And then we will get to the elections, 
which you already had, and we've done a good job. I think there 
is a lot going on. And the insurgents are attempting to disrupt 
all the more where national pride comes in to stand up and take 
on the insurgents.
    Mr. Al-Alusi. We are on the right track but we have to 
continue. It is really a huge vacuum. We are talking about a 
huge vacuum that you have in Iraq. We are in the right way, but 
we have to continue and we are going very fast.
    It is very important, as you say, sir, about the economy, 
the infrastructure. We have to find quick as possible that our 
people, the Iraqi people, they can see and they can feel the 
change in their daily life. This is very important----
    Mr. Ruppersberger. And my question to you is, do you think 
at this point that the average Iraqi person feels that way? Are 
we making headway, are we making progress as it relates to the 
hearts and minds? We know what we're doing as far as taking on 
the insurgents and trying to train Iraqis to take care of their 
own security, but where are we at this point? And if we're not 
where we need to be, what do we need to do?
    Mr. Al-Alusi. If we have to deal with it, we have to work 
it together; that means a clear strategical relationship. This 
is the problem. Now the American side is working on one side 
and the Iraqi is working on the other side. You have to find a 
mechanism how to work it together. But we are on the right way, 
and Iraq, they are accepting more from the United States of 
America.
    Mr. Ruppersberger. Does anybody else on the panel have a--
that's fine.
    Mr. Dermer. We haven't been to Iraq, so----
    Mr. Sharansky. Not yet.
    Mr. Ruppersberger. Not yet? Thank you, Mr. Chairman.
    Mr. Shays. Gentlemen, thank you very much. This has been 
very helpful, very educational. And your contribution to peace 
and democracy is extraordinary. Thank you.
    We will now go to our second and final panel. And I 
appreciate the patience of our second panel: Ms. Elizabeth 
Dugan, vice president, International Republican Institute; Mr. 
Leslie Campbell, director for Middle East Programs, National 
Democratic Institute for International Affairs; Professor Febe 
Armanios, professor for Middle Eastern Studies, Middlebury 
College; Mr. Khaled Saffuri, chairman of the Board, Islamic 
Free Market Institute; and, finally, Ms. Mona Yacoubian, 
special adviser, Muslim World Initiative, U.S. Institute for 
Peace.
    You know what I'm going to do--I'm sorry, I had you sit 
down, and I do need to swear you in, so if you would stand and 
we will swear you in.
    [Witnesses sworn]
    Mr. Shays. Note for the record our five witnesses have 
responded in the affirmative.
    Given that we have five witnesses, I would prefer that you 
stay close to the 5 minutes, but if you run over the 5 minutes, 
that's OK.
    We welcome all of you, and I want to just say how impressed 
I was with the work of the International Republican Institute 
and the National Democratic Institute for International Affairs 
in its work in Iraq in the last election.
    I met some very impressive people who were helping the 
Iraqis with this election, very impressed that 165,000 Iraqis 
were involved in this election process. And they take great 
pride, and deservedly so, in having an election that frankly 
had more people participate than participate in the United 
States. And the process was fair and almost flawless. It was 
very impressive for me to watch.
    We will start with you, Ms. Dugan, and then Mr. Campbell, 
and go down the line.

 STATEMENTS OF ELIZABETH DUGAN, VICE PRESIDENT, INTERNATIONAL 
 REPUBLICAN INSTITUTE; LESLIE CAMPBELL, DIRECTOR, MIDDLE EAST 
   PROGRAMS, NATIONAL DEMOCRATIC INSTITUTE FOR INTERNATIONAL 
  AFFAIRS; FEBE ARMANIOS, PROFESSOR, MIDDLE EASTERN STUDIES, 
  MIDDLEBURY COLLEGE; KHALED SAFFURI, CHAIRMAN OF THE BOARD, 
  ISLAMIC FREE MARKET INSTITUTE; AND MONA YACOUBIAN, SPECIAL 
   ADVISER MUSLIM WORLD INITIATIVE, U.S. INSTITUTE FOR PEACE

                  STATEMENT OF ELIZABETH DUGAN

    Ms. Dugan. Mr. Chairman, Mr. Ruppersberger, I want to thank 
you for this opportunity to testify. And in the interest of 
brevity, I will ask that my full testimony be----
    Mr. Shays. All your testimonies will be in the record.
    Ms. Dugan. I thank you, sir.
    Since September 11, 2001, the United States has given the 
topic of Middle Eastern democracy a new level of sustained 
attention, and has buttressed that attention with additional 
resources.
    The questions you have posed to us as witnesses today allow 
us to examine how effectively that attention and those 
resources are being used. But before we look ahead, it may be 
important to look back and to embrace at least two lessons 
learned.
    The first lesson is about democracy and security. President 
Bush articulated a shift in the U.S. Government's thinking 
about democracy and human rights in a very powerful speech at 
the Commemoration of the 20th anniversary at the National 
Endowment for Democracy when he said, ``60 years of Western 
nations excusing and accommodating the lack of freedom in the 
Middle East did nothing to make us safe, because in the long 
run stability cannot be purchased at the expense of liberty.''
    With these words he underscored that our commitment to 
freedom and reform in the region was serious, and that 
commitment is reinforced nearly daily, not only through his 
vision but through the strategic programs that define the 
policy, such as the U.S. Middle East Partnership Initiative and 
through organizations like IRI that mold the policy into 
action.
    The second lesson, which has been discussed at length here, 
is about democracy in Islam. But I hope you will allow me to 
give my perspective.
    In the early 1980's, skeptics said democracy was not 
possible in Latin America because of an ingrained sense of 
servitude in the minds of Latins. In the late 1980's in east 
Asia, similar expert theories were readily being tossed about 
Washington. And even back in the 1920's when Catholic democracy 
collapsed in southern Europe and Latin America, political 
scientists began to theorize that only Protestant northern 
European countries were capable of democracy. Now today, no one 
would put forward such a notion, and yet skepticism about the 
basic compatibility between democracy and Islam can still be 
heard in the corridors of Washington.
    For IRI, the question is settled. Islam, the faith of one-
fifth of the world's population, is consistent with democratic 
rule. From our years of work in predominantly Muslim countries 
like Indonesia and Bangladesh and Turkey, we have seen this; 
and I fully expect that we will look back on the issue of 
democracy in Islam in the years to come and see that many of 
the questions being raised about the two are as wrong-minded as 
those theories dating back to the European, Latin American, and 
east Asian examples.
    Our work in Iraq further confirms this belief. In Iraq, the 
skeptics said Iraqis would never participate in an election 
organized by the U.S. military. The skeptics said the security 
situation was too dangerous for people to leave their homes. 
And the skeptics said that insurgents would have a field day 
attacking polling stations and voters. But the world watched in 
January as some 8 million Iraqi voters turned out to 
participate in the country's first democratic election in more 
than 30 years. And while a great deal of hard work still 
remains, Iraqis are firmly committed to the transition from an 
authoritarian regime to a democratic government.
    How do we know this? In a recent poll, a national poll 
conducted by IRI, 90 percent of Iraqis said they believed that 
it is very important, or important, that their new constitution 
allow for the ability to select and change their government 
through peaceable and fair elections. Ninety percent. 
Similarly, 87.2 percent of those polled advocate keeping some 
type of quota for women's representation in the new national 
assembly as a means for securing roles for women in the new 
government.
    These numbers perhaps surprised some observers, but to 
those on IRI's staff working daily in the region, they 
demonstrate that not only is democracy compatible with Islam, 
democracy is the aspiration of the people. It's not just what 
we think, it's what they think and it's what they want. And it 
is reverberating across the region and imbuing local reformers 
with hope and courage in places like Lebanon, where the 
opposition has been emboldened by recent events in both Iraq 
and Ukraine; and in Egypt, where opposition has been more vocal 
in its demands for reform than any point during the last 
decade; in places like the West Bank in Gaza, where the Middle 
East witnessed the most free and competitive leadership 
election ever held in the region in January; and in places like 
Qatar and Morocco and Jordan, and the list goes on.
    It is not to say that significant challenges to advancing 
democracy don't remain in the Middle East, but the prospect of 
democratic governance in Islamic countries is really no longer 
an abstract debate; democratic advances are occurring. Muslims 
in the Middle East are participating in democratic processes. 
President Bush has removed the taboo of talking about and 
pressing for democratic reforms in the Middle East, and this 
increased attention to democracy and human rights, in words and 
in deeds, does help reformers in the Middle East committed to 
democratic change, and it gives organizations like IRI more 
muscle and more momentum to support them.
    Political reform is going to be difficult, and when we're 
talking about innovative initiatives like MEPI or the Broader 
Middle East Initiative, and looking for success stories and 
impact, we must be wary of demanding immediate results. We need 
to remember Serbia, we need to remember Ukraine, countries 
where IRI, among many others, engaged in democracy-
strengthening programs for a decade before the so-called 
overnight victories of the people against corrupt government.
    Democracy support is a long-term investment which, almost 
without exception, requires a sustained diplomatic commitment. 
But thanks to initiatives like MEPI, IRI is able to provide 
that democratic support in a region in ways that simply were 
unavailable to us in the 1990's.
    At the most basic level, MEPI directly and positively 
benefits IRI's democracy support mission by allowing us to 
think much more strategically about where and how we want to 
support democratic reform in the region.
    I have some examples, they're part of my testimony. Let 
me--I'll cut to my conclusion.
    Mr. Shays. Thank you.
    Ms. Dugan. I want to suggest the following: The President's 
vision and commitment to democracy and human rights promotion 
in the region is well conceived and forcefully articulated, but 
there is a cautionary note. If democracy promotion is 
undertaken without the support of our embassies, the tasks 
before groups like IRI, especially in authoritarian countries, 
are rendered infinitely more difficult.
    All elements of our foreign policy apparatus, including our 
embassies and USAID missions overseas, need to become 
constructively and consistently engaged to ensure that 
democracy promotion remains a priority and that both 
governments and citizens in the Middle East receive a uniform 
message about the need to implement reforms.
    And from the standpoint of IRI's work in the region, I can 
tell you it is crucial for democracy's expansion that Congress 
continues to focus its attention on this issue, and it's one of 
the reasons I'm so grateful for the hearing today.
    U.S. policymakers, including Members of Congress, must take 
the lead in giving praise where praise is due for those in the 
Middle East moving forward on democracy, and they must continue 
to condemn bad practices and to press for greater political 
space in which IRI and other NGO's can operate with indigenous 
reformers. And I thank you for your kind attention.
    Mr. Shays. Thank you very much. What a thoughtful 
statement; very helpful. How many years have you now worked for 
the Institute?
    Ms. Dugan. I started about 10 years ago, sir.
    Mr. Shays. You have been there during a very momentous 
time, haven't you?
    Ms. Dugan. Indeed. We have seen quite a bit of remarkable 
things happen in the world.
    [The prepared statement of Ms. Dugan follows:]

    [GRAPHIC] [TIFF OMITTED] T2706.020
    
    [GRAPHIC] [TIFF OMITTED] T2706.021
    
    [GRAPHIC] [TIFF OMITTED] T2706.022
    
    [GRAPHIC] [TIFF OMITTED] T2706.023
    
    [GRAPHIC] [TIFF OMITTED] T2706.024
    
    [GRAPHIC] [TIFF OMITTED] T2706.025
    
    [GRAPHIC] [TIFF OMITTED] T2706.026
    
    [GRAPHIC] [TIFF OMITTED] T2706.027
    
    [GRAPHIC] [TIFF OMITTED] T2706.028
    
    [GRAPHIC] [TIFF OMITTED] T2706.029
    
    Mr. Shays. Mr. Campbell.

                  STATEMENT OF LESLIE CAMPBELL

    Mr. Campbell. Thank you, Chairman Shays, Mr. Ruppersberger. 
I will echo my colleague, Liz, and thank you for the 
opportunity to appear.
    And just to refer to some of the nice words you said about 
the work of NDI and IRI in Iraq, we very much appreciate that 
and heard much about your visit. And I think it bears saying--
and we were very proud to work, of course, with the Iraqis, 
thousands of them who really risked their lives. In fact 10,000 
Iraqis acted as domestic election monitors, receiving nothing 
in return, but just engaging in the process, going out to 
actually watch people vote. It was an incredible day. I was 
there. I was one of the few international observers out on the 
streets. And I think, you know, without hesitation it was one 
of the most emotional, but also fulfilling days of my life.
    But coming back--and at the end of that day we did 
celebrate, both the international staff, with our Iraqi 
compatriots. We also realized that probably the harder work was 
about to begin; in fact, we said about midnight that night that 
the nice part about working on the Iraqi election was two 
things: One is that Iraqis, we knew that the demand was there, 
we knew that when given the chance they were going to show what 
they wanted. The second part is that we all knew what an 
election looked like. In a sense there was a linear path to an 
election, we knew what had to happen.
    Unfortunately, I don't think any of us quite know what 
happens next. We don't know exactly what the institutions of 
democracy in Iraq should or will look like. We don't know what 
exactly the constitution-building process in Iraq should or 
will be. And I think we knew then, and we found out in the week 
since that time, as we have seen with the struggles in the 
government, that the next steps are in some ways more important 
and also in some ways more difficult.
    So going back to the previous panel, I also would counsel a 
lot of patience and have everyone understand, as you have said 
several times in this hearing, that this is going to be a long 
complicated process.
    On the more general topic today of Middle East democracy 
and the Bush doctrine, I tried to address some of the questions 
that were posed for the panelists, and the first question was: 
Is the Bush doctrine working? Well, my answer would be yes and 
no. I have been involved in democracy promotion in the Middle 
East for just under 12 years, I have been with NDI for 12 
years, and much of that time has been a struggle.
    I have to say that it was difficult to get the attention of 
policymakers in Washington only a few years ago. And I often 
joke that in 1999, if we were trying to get attention, for 
example, out in the country of Yemen on the topic of democracy, 
that was not a popular topic. It was difficult to get people to 
listen. That has changed.
    This paragraph in late 2000, in summing up NDI's work in 
the region, said ``that the existence of courageous, democratic 
activists points to the growing consciousness of the Middle 
Eastern third way: The ground between the unresponsive 
authoritarianism of existing regimes and the rhetoric of 
religious extremism. The vanguard of this new third way are 
cautiously chipping away at the ruling elite's assumption that 
they can rule without the allegiance of the masses.''
    So we found over the years that there was a courageous 
third way, the type of people that are on this panel today. But 
they didn't get a lot of support. In fact, much of the aid and 
diplomatic efforts of the United States and others in the 
international community in the nineties appeared to be designed 
largely to show tangible results from the pursuit of regional 
peace. And this type of democratic aid contained few programs 
that challenged entrenched political authorities or that 
encouraged a more vigorous legislative branch. Not only that, 
the aid was channeled through official conduits, using formal 
and informal bilateral agreements.
    For example, U.S. aid to democracy in places like Egypt and 
Jordan and Morocco was negotiated with the government. And this 
is not a judgment on those governments, but their interest was 
not always in changing the structures that they themselves 
controlled. So that type of aid was not the most effective. And 
there was clearly a reluctance on the United States and the 
international community to push political reform in countries 
like Egypt, Saudi Arabia, and Pakistan.
    So President Bush, though, has done something extremely 
important. He has reinforced what is widely understood and 
frequently demonstrated in the Middle East, and that is that 
democracy is about universal values.
    There was an article last year in Foreign Policy entitled, 
``The True Clash of Civilization,'' where two professors 
pointed out through surveys done in more than 70 countries, 
that more than 80 percent of people in the Muslim and Islamic 
world support democracy.
    So what President Bush has done--and he has done it very, 
very dramatically--is he has given voice to that huge majority 
in the Arab and Islamic world, No. 1; and he has empowered and 
emboldened these reformers who have existed, actually, for a 
number of years.
    The second thing that President Bush has done is through 
his very frequent and powerful and forceful repetitions of this 
doctrine, of this idea that all people, given the choice, will 
choose freedom and want to control the decisions that affect 
their lives, is that he has slowly but surely turned U.S. 
policy around so that programs like the Middle East Partnership 
Initiative, which Liz mentioned, USAID programs, the programs 
of the National Endowment for Democracy, are now much more in 
the mainstream, and organizations like NDI and IRI are much, 
much more effectively able to push these democracy issues in 
the countries that we work in.
    To conclude, I would say that the challenge before us is to 
ensure that this new focus on actually pushing democracy that 
President Bush has articulated very well, that this new focus 
has continued; that the resources continue to be made 
available, and that U.S. policy doesn't do what would be the 
easy thing, which is to sort of drift and to not continue to 
push in these countries that resist this new democratic change. 
Thank you.
    Mr. Shays. I need to, for my own self sense of worth here, 
acknowledge the fact that in my youth I had, if not led the 
charge, been a vocal proponent of eliminating funding for the 
National Endowment for Democracy. And that absurd position, in 
light of what's happened in the last 15 years, humbles me. I am 
so grateful that I wasn't as persuasive as I thought I was.
    [The prepared statement of Mr. Campbell follows:]

    [GRAPHIC] [TIFF OMITTED] T2706.030
    
    [GRAPHIC] [TIFF OMITTED] T2706.031
    
    [GRAPHIC] [TIFF OMITTED] T2706.032
    
    [GRAPHIC] [TIFF OMITTED] T2706.033
    
    [GRAPHIC] [TIFF OMITTED] T2706.034
    
    [GRAPHIC] [TIFF OMITTED] T2706.035
    
    [GRAPHIC] [TIFF OMITTED] T2706.036
    
    Mr. Shays. Professor.

                   STATEMENT OF FEBE ARMANIOS

    Professor Armanios. Thank you, Mr. Chairman, distinguished 
subcommittee members, I am honored to be here today and pleased 
to share with you my views on this subject. My comments today 
are also part of a summary of a longer submitted testimony.
    Recent events in the Middle East, including the Lebanese 
demonstrations for and subsequent withdrawal of Syrian troops, 
the Iraqi elections in January, and the announcement of 
forthcoming multiparty elections in Egypt, have been viewed as 
a success for the Bush doctrine on democracy promotion in the 
Middle East. But the ways in which the administration's 
policies have been received by various groups in the region 
might be indicative of the challenges facing U.S.-sponsored 
programs. Some regional observers and politicians argue that 
the Middle East had been moving toward democracy long before 
the administration's calls for reform. Many also argue that 
there is no causal link between U.S. policies and trends toward 
reform.
    While this is an inexact assessment, we cannot separate 
recent developments from their local context. For example, the 
Syrian withdrawal from Lebanon is also strongly linked to the 
recent assassination of former Prime Minister Rafiq Hariri. 
Moreover, we cannot neglect that there is growing suspicion in 
the region toward the U.S.' motivation for reform, even from 
local advocates who otherwise might be natural allies to U.S. 
proposals.
    Mr. Chairman, critics of the administration's policies and 
some Arab leaders caution that promoting democracy in the 
region is incompatible with U.S. national security objectives. 
They argue that there is high level of support for Islamist 
leaders among voting populations in the Middle East, and that 
in most countries of the region, transparent democratic 
elections held today would almost certainly produce radical 
Islamic regimes that would then seek to undermine U.S. 
interests.
    In dealing with this assessment, we should first note that 
genuine democratic change in the region would likely bring to 
the foremultiple voices, including those of radicals and 
militants. But it may also create an opening for moderate 
Islamists. Moderate Islamists who reject violence and are 
willing to participate in a democratic framework will be 
crucial in sustaining stable democratic governments in the 
coming years. The risks involved in a democratic process that 
would allow these groups to become legitimate political actors 
might be worth taking.
    Second, there is a sense that open elections could bring 
radical Islamist groups into power and they might then 
transform the regimes that made elections possible into 
theocracies. This might indeed be the case. But in Turkey, we 
see that religiously motivated groups can participate under a 
democratic structure where they bargain with other political 
actors and become full-fledged members of a politically 
pluralistic society. If moderate Islamists are invested in a 
democratic system and realize that only within this system 
could they express and achieve their goals, they could become 
agents for, rather than obstacles to, positive change.
    Third, a push for democracy in the Middle East might create 
regimes that are partially or completely governed by Islamic 
law. We should take into consideration that an Islamic 
democracy might not completely conform to a Western-style 
interpretation. And in helping establish democratic structures 
in the region, U.S. policies must also strive for the inclusion 
of women, nonMuslims, nonIslamists, and secularist groups.
    Ultimately the United States can support democratic reform 
by focusing on the following points: First, the United States 
should encourage diversity in the political landscape of the 
Middle East. While the United States may disagree with their 
views, Islamists are part of the political reality of the 
region. Here, the United States should learn more about 
different Islamist groups, about their agendas, goals, and 
popular appeal, and should determine their capacity for 
participating in governance alongside secular or nonIslamist 
groups. The exclusion of these groups as a totality without 
making any distinctions among them might reinforce an existing 
notion in the region that the United States rhetoric and 
policies on democracy promotion are disingenuous.
    Second, the United States should be cautious in the extent 
in which it recognizes existing sectarian, religious, and 
patriarchal divisions. In looking for natural allies in Iraq, 
the United States has worked with religious and tribal leaders 
to form a new government. This approach might substitute one 
set of traditional power holders with another. The United 
States should work with NGO's, grassroots organizations, and 
civil society in soliciting ways to include women and 
nontraditional power holders in governance.
    Third, the U.S. Congress should work to strengthen existing 
democracy promotion programs. Congressional oversight can 
monitor programs such as MEPI by ensuring that they are 
signaling the U.S.'s commitment to democratic reforms that are 
sensitive to local political conditions and to indigenous 
interpretations of democracy. Most importantly, perhaps, 
provisions in these initiatives must take into account unique 
conditions within each country in the region.
    Finally, the State Department should intensify its public 
diplomacy efforts and press for improvements in human rights, 
political participation, strengthening the rule of law, and 
promoting freedom of religion, speech, and press in the Middle 
East. The United States will gain greater credibility in the 
region if it prioritizes democratic reform alongside its short-
term economic and strategic interests. The United States should 
maintain bilateral dialogs, bilateral dialogs with regional 
governments, and should advocate reform especially from its 
closest allies. This dialog should be bolstered by a 
willingness to exert diplomatic and economic pressure to 
express the seriousness of U.S. policies.
    Thank you very much.
    Mr. Shays. Thank you very much.
    [The prepared statement of Professor Armanios follows:]

    [GRAPHIC] [TIFF OMITTED] T2706.037
    
    [GRAPHIC] [TIFF OMITTED] T2706.038
    
    [GRAPHIC] [TIFF OMITTED] T2706.039
    
    [GRAPHIC] [TIFF OMITTED] T2706.040
    
    [GRAPHIC] [TIFF OMITTED] T2706.041
    
    [GRAPHIC] [TIFF OMITTED] T2706.042
    
    Mr. Shays. Mr. Saffuri.

                  STATEMENT OF KHALED SAFFURI

    Mr. Saffuri. Thank you. Mr. Chairman, members of the 
subcommittee, I would like to thank you, especially Chairman 
Shays, for inviting me to testify this morning. I have a 
written statement which I ask to be included on the record.
    Mr. Shays. It will be included.
    Mr. Saffuri. Thank you. Thank you very much for holding 
this hearing on such an important matter involving democracy, 
civil rights, and foreign policy matters. The issue of 
democracy in the Middle East has been of critical importance to 
the Islamic Free Market Institute Foundation, which I am a 
cochairman, a cofounder and chairman since its founding in 
1998. We hosted the first conference of free market and 
democracy in Doha, Qatar in the year 2000, and our fifth 
conference was held just a few months ago.
    Following the tragic attacks of September 11th, the larger 
issue of democracy and freedom in the Muslim world has been 
taking a profound importance. I welcome this opportunity to 
provide this subcommittee and Members of Congress our opinion 
on the impact of U.S. policy and U.S. statements on the Middle 
East and in the Muslim world.
    First, I would like to begin by talking about the problem 
that is a credibility problem which hurts our effort in 
spreading democracy in the Middle East. No matter how 
passionately President Bush states or makes his notions of 
spreading freedom, there is a growing perception that America 
continues to deny justice to Islam and Muslims. Specifically, 
the Muslim world is convinced that our government violates 
civil rights and due process of Muslims right here in the 
United States. This results in a perceived double standard 
which runs the risk of preventing any meaningful dialog with 
the Muslim street.
    A few months ago Mr. Osama Siblani, the editor of the 
largest Arab American paper in Detroit wrote: ``How can we 
believe that America's engaged in spreading democracy in the 
Arab and Muslim world while we as Arab Americans have less 
democracy here in the U.S.?''
    Many people are aware of the prosecution of Muslims in this 
country, and Arabs. There is an article that I can make 
available here, written in the American Conservative magazine 
by James Bovard called ``Undue Process.'' These kinds of 
incidents are translated in the Middle East into Arab and 
Muslim press, and they cause this credibility problem to spread 
more. This also runs the risk of rendering unmeaningful the 
hundreds of millions of dollars we continue to spend in public 
diplomacy, democracy initiatives, and the media. Anyone that 
looks at the polling in the Middle East, you see that in 
general America's stand in the Arab and Muslim street actually 
is declining, not improving.
    Islam provides not only religious guidance but represents 
the philosophy, culture, and sociopolitical foundation of most 
Muslim societies today. It is important that we recognize, 
first and foremost, that allowing Islam or its belief to be 
attacked hinders our effort at building bridges and 
understanding with the Muslim world. So as we consider programs 
and campaigns to foster freedom in the Muslim and Arab world, 
we must realize that these societies will reject any approach 
which marginalizes Islamic thought.
    Yet there is much for us in the United States to teach in 
emerging democracies. We can demonstrate the importance of 
civic institutions which would be compatible to Islam to serve 
as barriers to social injustice and authoritarian regimes.
    In a nutshell, only--it is not only that Islamis compatible 
with democracy, it is required as a foundation in any Muslim 
country.
    The issue of the state-run media--and this is something I 
would like to address here regarding the programs of Radio Sawa 
and Al Hurra--I would like to address the hurdles in presenting 
U.S. viewpoints through media efforts such as Al Hurra 
satellite channel and Radio Sawa. One thing that can be said of 
Arabs is total distrust of state-run media. For generations, 
governments in the Middle East were feeding information to 
their public that people have total mistrust, it's a government 
propaganda. The government point of view was always presented 
without any challenge. Al Hurra is U.S. Government-funded and 
perceived as strictly controlled by the U.S. Government. This 
might not be true, but this is how the street looks at Al 
Hurra. And this is the reason why Al Jazeera has been very 
successful. And every time Al Jazeera is attacked in America, 
the more popular it becomes in the Middle East.
    Furthermore, the constant broadcasting on stations in the 
Muslim world such as the Armed Forces Radio of perceived anti-
Islamic commentary by the likes of Rush Limbaugh. I have a 
personal experience. I was in Bahrain 2 years ago, and a high-
ranking official of the Foreign Ministry said we are strong 
allies of the United States but we are constantly embarrassed. 
He said, we have the naval base in Bahrain, and we allow the 
radio station, military radio station here, but we get 
complaints and people are angry on the street because there is 
this program of a guy--he couldn't spell his name, he said 
Limbo. I said, Rush Limbaugh. He said, ``Yes. He is constantly 
insulting Islam, and there's nothing we can do.'' So I said I 
will go back to the States.
    Mr. Shays. I have something in common with that as well. I 
get the same insults.
    Mr. Saffuri. We raised the issue with two Pentagon 
officials and a letter was sent immediately. We didn't get an 
answer. Then I raised an issue with Mr. Wilcox, assistant in 
the Secretary of Defense, and he said this will be considered 
censorship. He said Rush Limbaugh's program is the most popular 
in the military radio, so they could not censor it, they could 
not remove it.
    But this really undermines the work, the great work that 
has been done by IRI and NDI, and also the other stations that 
we support, like Al Hurra and Radio Sawa.
    I would like to conclude, I think I can talk more about 
these issues later.
    Mr. Shays. If you could bring your comments to a close.
    Mr. Saffuri. OK. I will close here and I will leave it for 
answering. Thank you again.
    Mr. Shays. Thank you so much. I complimented our first 
speaker on her thoughtful comments, but I congratulate all of 
you and thank all of you.
    [The prepared statement of Mr. Saffuri follows:]

    [GRAPHIC] [TIFF OMITTED] T2706.043
    
    [GRAPHIC] [TIFF OMITTED] T2706.044
    
    [GRAPHIC] [TIFF OMITTED] T2706.045
    
    [GRAPHIC] [TIFF OMITTED] T2706.046
    
    [GRAPHIC] [TIFF OMITTED] T2706.047
    
    [GRAPHIC] [TIFF OMITTED] T2706.048
    
    [GRAPHIC] [TIFF OMITTED] T2706.049
    
    [GRAPHIC] [TIFF OMITTED] T2706.050
    
    [GRAPHIC] [TIFF OMITTED] T2706.051
    
    [GRAPHIC] [TIFF OMITTED] T2706.052
    
    [GRAPHIC] [TIFF OMITTED] T2706.053
    
    [GRAPHIC] [TIFF OMITTED] T2706.054
    
    [GRAPHIC] [TIFF OMITTED] T2706.055
    
    Mr. Shays. Ms. Yacoubian.

                  STATEMENT OF MONA YACOUBIAN

    Ms. Yacoubian. Thank you, Mr. Chairman, and members of the 
subcommittee for inviting me to speak today. I am truly honored 
to be among such distinguished company. The powerful title of 
this morning's hearing, ``Fostering Democracy in the Middle 
East: Defeating Terrorism with Ballots,'' underscores the 
critical role that freedom and democracy can play in countering 
extremism in this troubled region.
    Indeed, in the aftermath of the September 11th terrorist 
attacks, the world turned its attention to the Middle East's 
longstanding democracy deficit. With the Pentagon in flames and 
the Twin Towers collapsing, the horror of that day initiated 
deeper reflection both here and in the Arab world about the 
roots of such a horrendous act.
    Recently, global and regional interest has focused 
intensely on the Middle East's need for reform. The region's 
stagnation dates back decades. Yet until the 2001 attacks, 
these ills received scant attention from governments in the 
region or their global counterparts. The September 11th attacks 
shattered the conventional wisdom that the region's stability, 
anchored by its authoritarian governments, could endure 
indefinitely and would come at little cost to U.S. interests. 
Precisely the opposite conclusion has become apparent. Middle 
East reform is critical for long-term regional stability and 
broader international security. Absent change, the status quo 
will only breed greater popular disaffection and provide 
fertile ground for the continued growth of extremism.
    In advance of today's hearings, you provided a number of 
complex questions focused on two key issues: first, the 
region's ripeness for reform; and, second, the Bush 
administration's policies on Middle East reform. I will devote 
the majority of my testimony to the first question. I want to 
add that the views I express are my own and not necessarily 
those of the U.S. Institute of Peace, which does not advocate 
specific policy positions.
    The absence of freedom in the Middle East is well 
documented. Freedom House, in its most recent survey, notes 
that the region is distinguished from the rest of the world by 
its distinct lack of political rights and civil liberties. At 
times, regimes in the region have resorted to wide-ranging 
repressive practices in the name of fighting the global war on 
terror. Such policies often result in an increase in human 
rights violations and the overall suppression of dissent, even 
when peaceful.
    An Arab awakening to the need for reform has taken place as 
well. In July 2002, less than a year after September 11th, a 
U.N-commissioned panel of 30 Arab experts issued the first Arab 
Human Development Report. In blunt language, the AHDR issues a 
probing self-critical analysis of the region's shortfalls. 
Specifically, the paper outlines three key deficits: freedom, 
women's empowerment, and knowledge that impede the Arab world 
from achieving its true potential.
    The report concludes with a clarion call for reform. While 
the Arab world's lack of political freedom is well documented, 
the region's democracy deficit should not be misinterpreted as 
a lack of desire or capacity for democratic reform on the part 
of its citizens. Numerous polls and surveys verify the Arab 
public's hunger for freedom and democracy. The most compelling 
data originates from the 2001 World Value Survey which reveals 
that Arab countries had the highest percentage of publics, 61 
percent, who agreed strongly that, ``democracy may have many 
problems, but it's better than any other form of government.''
    Beyond the polling results, other data coupled with key 
concepts in Islam suggests that there is not necessarily an 
inherent contradiction between Islam and democracy. First, 
there are many examples of countries with significant Muslim 
populations that are considered electoral democracies. Second, 
notable principals within Islam such as shura or consultative 
decisionmaking and ijtihad, or interpretation, can propel a 
democratic ethos.
    The absence of freedom in the Middle East does not appear 
to have precluded many of its people from embracing the hope 
for democratic reforms. Indeed, intense international interest 
directed at the need for Middle East reform has helped to 
initiate an unprecedented dialog over reform in the region.
    The boldest and most detailed proposals originating in the 
Arab world have emerged from nongovernment organizations. 
Beginning in January 2004, a diverse array of groups ranging 
from the Arab Business Council to the Egyptian Muslim 
Brotherhood have published a wide variety of reform 
initiatives. Most significantly, many of these initiatives have 
advocated forcefully for political reform. I would be happy to 
discuss the specifics of these initiatives during the question 
and answer.
    In contrast, government proposals for reform may provide 
entry points for pressing for more substantial democratic 
change, but they fall short of meaningful, deeply rooted, and 
sustained reform. Instead, government measures typically appear 
designed to relieve popular pressure at home and assuage 
critics abroad while leaving the power equation unaltered. To 
be successful, any reform effort must be inclusive, reaching 
out to all elements of society, including modern Islamists who 
likely constitute the region's most potent opposition force. 
Yet, with few exceptions, joint reform efforts that bring 
together secular and Islamist reformers are rare. Calls for the 
creation of national pacts could bridge secular and Islamist 
demands for reform and possibly galvanize the reform movement.
    In closing, it is useful to consider the implications for 
U.S. policy. To date, the Bush administration's focus on Middle 
East reform at a minimum has energized discussion of the issue 
in the region. For all of its controversy, the U.S. invasion of 
Iraq may have contributed indirectly to numerous positive 
developments in the region. Still, several significant 
challenges remain. First, bolstering U.S. credibility in the 
region stands as a key priority for policymakers. Second, the 
administration must determine how to reconcile the well-
documented need for change in the region with longstanding 
desires for stability. Third, U.S. engagement with moderate 
Islamist reformers is essential. Finally, U.S. policymakers 
need to harmonize U.S. policies in support of the global war on 
terror with the desire to promote reform.
    Mr. Chairman, thank you for calling this hearing today on 
such an important issue. The movement toward political reform 
in this critical region of the world will not be easy, quick, 
or without difficulties, but it is necessary and must be 
sustained. The long-term stability of the region, which is in 
everyone's interest, is at stake. Thank you very much for this 
opportunity.
    [The prepared statement of Ms. Yacoubian follows:]

    [GRAPHIC] [TIFF OMITTED] T2706.056
    
    [GRAPHIC] [TIFF OMITTED] T2706.057
    
    [GRAPHIC] [TIFF OMITTED] T2706.058
    
    [GRAPHIC] [TIFF OMITTED] T2706.059
    
    [GRAPHIC] [TIFF OMITTED] T2706.060
    
    Mr. Shays. Thank you very much. It's been a wonderful panel 
to hear from. And we will start with Mr. Ruppersberger for 
questions.
    Mr. Ruppersberger. Thank you, Mr. Chairman. And I do think 
it's an excellent panel.
    I think we all agree that we would love to see the goal of 
democracy in countries throughout the world. But then there's 
the challenge of implementation, and that's a part of what we 
are trying to talk about today. I think the areas that I would 
like to focus on in my questions--and I will probably go to you 
first Mr. Saffuri--are these.
    First, how do we deal with radical Islam? Because I see 
radical Islam, probably as one of our biggest problems as it 
relates to world peace, as it relates to what's going on in 
Iraq. And I'm concerned about the education of children with 
respect to radical Islam. And how do we deal with that issue?
    The second issue. I have been to numerous countries 
throughout the Islamic world, Iraq, Afghanistan, Pakistan, 
Libya, over in Asia, different countries. And one of the things 
that I think has to be done and has to be worked through is the 
discrimination against women. If we are going to have a true 
democracy, we have to deal with that issue. Saudi Arabia, 
considered to be progressive, a woman cannot drive a car. They 
have police running around trying to catch them showing a 
little skin or whatever their issues are. And yet, you know, if 
we don't have women involved--and I think there's a good role 
model with Karzai in Afghanistan who worked hard to get women 
involved. I think that's a very important and relevant issue.
    The next issue is education. And that is so important. And 
I talked in the previous panel, infrastructure and quality of 
life. But that goes in together.
    And the fourth is that how do we mitigate, how do we 
mediate between the different religions? Iraq, as an example, 
where you have Sunni, you have Shia, you have different 
religions and have different points of view and they're 
fighting with each other. How do we pull them together as it 
relates to democracy? If you can address those four issues, I 
would--and if we have time, I will go to the rest of the panel.
    Mr. Saffuri. Thank you. I think this is a very difficult 
subject to tackle.
    Mr. Ruppersberger. That is why I asked the questions. And 
one point I want to say about Rush Limbaugh. Rush Limbaugh has 
personally said over and over he is an entertainer. So even 
though a lot of people like to hear what he has to say in the 
United States, if he says himself that he is an entertainer, I 
would send that message out to the rest of the Islamic world 
when he does--you feel like he is attacking you, that he says 
he is an entertainer and not a part of the media. Maybe that 
might help the situation.
    Mr. Saffuri. Well, the problem, these statements come very 
frequently. And the incident with the desecration of the Quran 
in Guantanamo, even though Newsweek denied the story, but still 
the result of that story, as you saw, caused the death of 17 
people.
    The issue of radical Islam, I really think one of the most 
important issues is to engage Islamic parties and Islamic 
activities in dialog. And if you look at the Islamic movement 
in the Muslim world, it varies from one country to another. The 
Islamic bloc in the Kuwait Parliament, they have been 
participating in elections since 1963, they have 11 people out 
of 15 in Parliament and they represent--even though they work 
frequently as the Cabinet members. They are engaged in dialog 
with the U.S. Embassy in Kuwait. They come frequently to 
Washington. There was one of the leaders here just 2 weeks ago 
speaking at the National Defense University. So it's from 
country to another. The more pressure there is on people, the 
more radical the reaction comes in the street.
    This is my personal belief. You have countries that are 
allies of the United States receive great aid from taxpayers' 
money, and these countries imprison people for simply running 
for Parliament. So when people have no hope in their societies, 
they become radicalized gradually. So I think the most 
important thing that the United States needs to do, we need to 
start with our allies before--I think pressuring Syria is very 
important, but before we pressure Syria we have to set an 
example with our closest allies in the area. These countries 
that get foreign aid, you can use for it as leverage with these 
countries, whether you want to hold part of foreign aid, 
whether you want to engage these countries, hold part of the 
foreign aid until they start conducting political reforms in 
these countries. And I think having these billions of dollars 
pumped into these economies should be used to pressure these 
countries to make change. That is extremely important.
    Mr. Ruppersberger. Let me stop you there, because I want to 
get an issue out. And I know I've had numerous conversations, 
just this last Sunday night with Muslim Americans about what we 
can do and what the Muslim community can do to help world 
peace, to help democracy. And one of the issues that I think is 
extremely important is controlling the message, something that 
maybe Rush Limbaugh tries to do. And controlling the message 
that we need the help of Islamic Americans and other Muslims 
throughout the world to let the people in other countries know 
that Islam is not about killing yourself because that's what 
God wants you to do. And I think you have to start with the 
younger generation and have to educate. But I am calling out 
and challenge the American Muslim community, and then Muslims 
throughout the world who are leaders, to help control that 
message and to get the message out that Islam is a peaceful 
religion. And to have people professing that they are killing 
for God, that's not what it's about. And I would think that any 
Muslim throughout the world would hold anybody and radical 
Islam accountable for preaching and for promoting that.
    And I think that we can't do it alone, the United States or 
other countries. We can help you with security, we can help you 
with infrastructure and money, but we need to have the Muslims 
throughout the world, the leadership. And I know there's some 
that are doing it, but it's not enough. And I'm encouraging you 
to reconsider your goals throughout the world to help us 
control that message about Islam.
    Mr. Saffuri. Absolutely. I think the Muslim community have 
a duty to help the United States, but also the U.S. Government 
has a responsibility on asking the help of the Muslim 
community. Frequently the State Department implores people that 
all the relationship with Islam is a few classes at Georgetown 
University, or being born and coming to the United States at 
the age of 2 and having very little knowledge of the Islamic 
world. That is a fact----
    Mr. Ruppersberger. My time is almost up. Mr. Chairman, are 
you going to let us go a little longer?
    Mr. Shays. Yes.
    Mr. Ruppersberger. OK.
    Mr. Saffuri. On the woman issue, the other----
    Mr. Ruppersberger. Let's get to the women issue about 
discrimination and how--you know, how can we have democracy and 
freedom if we don't deal with the issue of women and 
discrimination? And I know it's a different culture.
    I will give you an example. I was at a function, an Islamic 
function, and talking to the men and women that were mixed 
together. And then it was time for me to have a speech, and in 
the room the Muslim women were on one side and the men were on 
the other. And during the speech I made a comment that I don't 
really understand, but I understand it's your culture. Boy, 
after I gave my speech I really got criticized by the women, 
that this is what we want to do, that's our religion. And 
that's where we have to understand and educate each other. So I 
think this discrimination against women has to be dealt with.
    Mr. Saffuri. Yes, I agree----
    Mr. Ruppersberger. It doesn't mean that I am saying to 
change your culture.
    Mr. Saffuri. Frequently----
    Mr. Ruppersberger. But educating women.
    Mr. Saffuri. Frequently Islam is used to justify the 
discrimination against women. In reality, it is absolutely not 
true. I was in Kuwait during the debate over women being 
allowed to vote in the year 2000. Kuwait issued a decree 
allowing women to vote; Parliament overruled it. And we were 
then with the congressional delegation meeting with some 
members of the Islamic bloc, and they used Islam as a 
justification. And I challenged them to prove it, and then they 
backed down. They said actually Islam have nothing to do with 
it; the whole issue is tribal and culture issue. And this is 
why--the vote took place 2 weeks ago in Kuwait, and the Islamic 
parties did not vote, actually did not vote against it because 
they know that there is nothing in Islam against it.
    Mr. Ruppersberger. It's a good step. But it's also--you 
need to deal with the issue of education, too.
    Mr. Saffuri. So going back to the issue. I think we need to 
engage Islamic parties and Islamic activists in dialog whether 
by inviting them here. The State Department have speakers 
program where they bring people around the country. I think 
they should include a large number of Islamic activities. I 
know the work of NDI and IRI, they do lots of work in the Gulf 
of Yemen and North Africa. They need to talk to those people. 
Some countries they probably cannot meet with them probably 
because, for example, in Tunis, Islamic activism is barred by 
the government. They put all of them in prison a long time ago.
    But you need to engage them, and I think through engagement 
and dialog you can--I think they will eventually have to admit 
that lots of stuff was influenced in the last 30 years by 
Wahhabi ideas that have nothing to do with Islam; it's more of 
the ideology, in my opinion. I can debate this----
    Mr. Ruppersberger. But, you know, the influence of children 
with Wahhabism and the schools that are developing, that's a 
very serious issue, because the children are very 
impressionable. And these are some of the people that are 
recruited to put bombs on their bodies to kill themselves. So I 
mean, I think--I would like to hear you suggest in dealing with 
radical Wahhabism, how you as a Muslim and how leadership in 
the Muslim community can deal with those messages.
    Mr. Saffuri. I think Saudi Arabia is a very close ally of 
the United States, and I think that's another leverage we 
should use. We have a close relationship, and these issues 
should be constantly with----
    Mr. Ruppersberger. But how do we implement dealing with 
that issue? How do we implement dealing with Saudi Arabia? I 
was in Saudi Arabia and had conversations about this issue, and 
they said, well, we have--how can you promote Wahhabism and 
some of the radical teachings? And yet those are the same 
people that are attempting to kill your leadership. How would 
you recommend that we deal with that? If we don't deal with 
radical Wahhabism and the training of young people, we are 
going to have serious problems throughout this world for a long 
time.
    Mr. Saffuri. I do agree with that----
    Mr. Ruppersberger. So how would you recommend that we deal 
with it?
    Mr. Saffuri. You know, I think the Saudis are trying to 
make some changes. They have great resistance inside the 
country. But I think that doesn't mean we should stop 
pressuring them. I think the pressure should continue. I think 
more visits from Members of Congress to engage the Saudi 
leadership, this kind of dialog of making the changes. And also 
with the leadership. I think the last elections of Riyadh, the 
Islamic candidates won the entire, the elections for the city 
of Riyadh. So I think those guys should either invite them to 
the United States, engage them in dialog. You have to reach 
some kind of agreement.
    I also think another way of supporting more Muslim, 
moderate Muslim leaders who do not subscribe to the Wahhabi 
ideas, I think there is plenty of them. I think in the last 30, 
40 years, the oil money caused explosion with this Wahhabi 
ideas all over the world, especially in Muslim communities 
within the Muslim world or in the West. Because of the access 
to the large amount of money, these ideas were turned into 
books and these books were made available where many Muslims 
who tried to learn about Islam understood the Wahhabi ideas to 
be the legitimate ideas for Muslim.
    Mr. Ruppersberger. Do you think the leaders of the 
different governments should attempt to have influence on the 
Wahhabi teachings?
    Mr. Saffuri. I think if they feel the pressure from the 
outside, they will go hide in a corner and continue their 
activities. I think it should be an open dialog. And they 
should be challenged on facts from the history of Islam. Women 
and Islam participated with men in the battlefield, 
participated--the prophet's wife was a trader, she was a 
businesswoman. So now to say women could not drive a car or 
women could not mix with men, it is really in total 
contradiction with Islamic teaching. So you have to challenge 
it. You have to allow the more open-minded Muslim leaders to 
challenge it under an open dialog.
    Mr. Ruppersberger. Anyone else have comments on what we 
discussed?
    Mr. Campbell. If I could jump in.
    Mr. Ruppersberger. Mr. Campbell.
    Mr. Campbell. If I could jump in, maybe----
    Mr. Ruppersberger. We learn more this way. Thank you.
    Mr. Campbell. Maybe, with respect to my friend--and we have 
talked a lot, I think, all of us, so you know we see ourselves 
as colleagues basically. And I didn't hear anything I disagreed 
with totally, but I think I would challenge the thesis a bit 
about how to tackle Islam. And I would say that the challenge 
before us--and I am thinking about NDI and IRI and others that 
are on the ground doing these programs--it's not so much to 
democratize Islam. I don't disagree with any of the concerns 
that you brought up. I think these are real concerns. But I 
think if we tackle this problem by thinking that we have to go 
in, in a sense, as outsiders and try to democratize Islam, I 
think we will get bogged down and not get very----
    Mr. Ruppersberger. I agree. It has to come from within. And 
success breeds upon success.
    Mr. Campbell. Well----
    Mr. Ruppersberger. That's very important.
    Mr. Campbell. It does breed success. The other thing is 
that if we champion freedom--and I don't always like to sound 
like I'm parroting President Bush's words because I come from a 
different political vantage point.
    Mr. Ruppersberger. This shouldn't be----
    Mr. Campbell. But--but if we champion----
    Mr. Ruppersberger. Partisan anyway.
    Mr. Campbell. Then what happens is you can build a middle. 
I think the problem that we run into in Saudi Arabia, even in 
Kuwait, certainly in Egypt, is that there are two extremes. You 
are on the government's side where they say, oh, we can't open 
up because we have the specter of the radicals on that side. If 
you are on the radical side, they say there is no other choice; 
the only way we can organize and speak is in the mosque. And I 
think that the challenge that we have is, in thinking about 
democracy promotion, is how do you open up that middle? So not 
so much to democratize Islam, but to provide the political 
space where other voices can be heard, including----
    Mr. Ruppersberger. So be more specific. How would you 
implement that?
    Mr. Campbell. Well, one thing, pressure to have elections. 
I agree that elections are not the only answer, but successive 
iterations----
    Mr. Ruppersberger. But before you can have elections, you 
must have security. You must train countries to also provide 
their own security, which is the only way in the end we are 
going to get out of Iraq. And we have a long way to go there.
    Mr. Campbell. That's true. Although--and, again, this is a 
chicken and egg problem. If you have security but no freedom, 
then we end up with this problem of developing a malignancy. 
You know----
    Mr. Ruppersberger. No question.
    Mr. Campbell. People have said that we thought we were 
getting stability in the Middle East; what we were getting was 
malignancy, and eventually it erupts and it hurts us all. So 
it's a very difficult balance. You can't have--I'm not 
suggesting you forget about security and go into democracy in 
elections, but you pursue these things simultaneously because 
people are demanding a chance to have a voice. If they don't 
have a voice, then the radicals dominate the agenda, and I 
think that's what we have seen.
    Mr. Ruppersberger. And if that is the case, then you must 
win the hearts and minds of the people, because no government--
no one is going to be able to force somebody. They are going to 
know what their quality of life is.
    Thank you, Mr. Chairman.
    Mr. Shays. If you want to jump in, Ms. Dugan, please feel 
free.
    Ms. Dugan. Not to put too fine a point on it, but just to 
perhaps jump off from where Les left off here and talk a little 
bit about the women's aspect of this. I think it would be a 
different matter if NDI and IRI found themselves on the ground 
in a place like Iraq or a place like Afghanistan, saying to 
people women must be more involved here, so you'll have to go 
out and try to find them and then we will do what we can to 
find them.
    In fact it's quite the opposite that has occurred. There 
are women who have come to us from the very beginning and said 
we need your help, we need an understanding, we need tools to 
allow us to have our voices be more strongly heard. And as you 
yourself have pointed out, the women's participation in the 
political process in Afghanistan has been enshrined to some 
degree in the constitution of Afghanistan. This is----
    Mr. Ruppersberger. And that started with the leadership of 
Karzai, too.
    Ms. Dugan. Exactly correct. Exactly correct. So these are 
the sort of signals that we can take to begin to expand our 
programs.
    Mr. Ruppersberger. In order to do that, do you feel that 
education is one of the strongest elements to help this issue 
of discrimination against women?
    Ms. Dugan. It's a very important element. And the women 
themselves, I think, are prepared to step up to that plate.
    Mr. Shays. Did either one of you want to respond to Mr. 
Ruppersberger's questions?
    Ms. Yacoubian. Maybe just very, very briefly. One is to 
actually build on the point that was made here. And that is the 
whole issue of family code revisions, that--these are laws that 
dictate women and their status that are often discriminatory. 
And so certainly one way to begin to get at this problem is to 
advocate for revision of these family code laws.
    I would raise the example of Morocco in which its family 
code law was revised, I believe it was last year, and it now 
has one of the most liberal status codes with respect to women 
in the Arab world. Of course, the trick is that once those 
revisions are made, ensuring that in fact those statutes are 
implemented and so forth. But I think that's a very important 
means of getting at some of the discrimination issues. And the 
only other point I'd like to make is that----
    Mr. Ruppersberger. But where does that have to come from? 
Does that have to come from the religious leaders? How can you 
change a code?
    Ms. Yacoubian. That has to come from government, 
governments in power and parliaments. And obviously in the Arab 
world, typically governments are the ones that control these 
kinds of issues; parliaments often have their hands tied. And I 
think in this regard the United States can play an important 
role, quietly to push for and advocate for revisions of family 
code.
    I believe there are discussions now in Algeria--is that 
correct, Les--about the family law. So this would be an 
important place again to quietly perhaps lobby and push for 
revision of a code in such a way that it's more liberal and 
freer with regard to the way women are treated.
    Professor Armanios. I would like to just add that we have 
to be willing to be open to different voices within even the 
women's movement itself. For the example of Iraq, we see that 
there is a spectrum of women's groups, some of which are 
actually advocating for a greater implementation of Islam. They 
see that through Islam they would have greater rights. And this 
is kind of building on your point. It takes a more moderate 
interpretation in that sense of the religion. But they are 
still working within those parameters rather than abandoning 
cultural and traditional values, and that's something that I 
think we need to be sensitive to on the ground.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    Mr. Shays. This is fascinating stuff. I was just thinking 
as you were talking, I was an administrative aide to a mayor, 
and I got a call from a constituent who was very unhappy that 
the legislature was abolishing a law that said women couldn't 
work past 12 at night. And she was a supervisor and didn't want 
to work past 12 at night, and so she wanted that law. And I 
think of that in light of the distortions sometimes that we get 
in public policy. You know, if she didn't want to work past 12 
at night, she needed to work that out with her boss, but she 
didn't need a law that prevented every woman from working past 
12 at night.
    I want to just, I have been in awe, I was in awe of the 
experience I had in Iraq during the election, and I interacted 
in Irbio with both the International Republican Institute and 
the National Democratic Institute. In Irbio, one was involved 
with the monitoring and another was involved with getting out 
the vote. Do you remember which organization, what your 
organizations did in that area in Irbio? Do you remember?
    Mr. Campbell. Well, the organization that NDI was 
associated with was called the Election Information Network, 
which was more a monitoring organization. And IRI was dealing 
with an organization which was much more about actively 
encouraging people to vote. I don't remember the name of the 
organization.
    Mr. Shays. And you had incredible systems set up around the 
country. And they were Iraqis. But what was fascinating to me 
was with the--I think it was the International Republican 
Institute. There was a woman who was--appeared to be fairly 
young. I thought she was still in her twenties. And I was 
thinking she was devoting morning, noon, and night to this 
effort. And she was from former Yugoslavia. And I said, why are 
you here? And she said in so many words: Because your country 
helped bring democracy. And I don't even know if she said 
``your country.'' She said you helped bring democracy to my 
country, and I wanted to share what I learned with someone 
else.
    I thought the power of that was just extraordinary. Do you 
remember this young woman? I mean, is she--I mean, just, it was 
just mind-boggling.
    Ms. Dugan. Mr. Chairman, her name is Olga. She is star on 
our team in Iraq, which is no small effort, as you know well. 
And I too am grateful for your praise of our programs there. 
You can know that it is a very challenging environment but one 
that the entire staff of IRI is completely dedicated to.
    Mr. Shays. Was she Muslim herself? I mean, was she a 
Christian? Muslim? Do you know?
    Ms. Dugan. No. But it's an interesting point that you bring 
up because it's one of the things that we have tried to do, not 
only in Iraq, but in many programs that we have around the 
world. And that is to build off the experiences of those in 
countries which are--which have come more recently to 
democracy, who have a more recent experience with how these 
systems are in fact not only built but rooted deeply. And so 
here's a young woman who has sort of lived it in her lifetime, 
who can bring her own sense of how you apply these things in a 
different environment. And as I think you know well, this is 
not a cookie-cutter approach that we can take. We understand 
this from our work. You can't just pick it up, move it over, 
and put it down. But you can begin to apply a lot of the same 
concepts and modify them appropriately.
    Mr. Shays. Well, it spoke to my Peace Corps heart, because 
I was thinking this wasn't an American telling Iraqis or 
helping, showing Iraqis. Not that there weren't Americans 
there, but it was someone closer to their experience. It was 
just downright extraordinary, it was impressive, and I think of 
her and the organization and what you all accomplished in that 
effort.
    Last August, I led a CODEL, a number of Members of 
Congress, not many, but a number, went to Iraq, spoke to the 
leaders there, the leaders in Jordan, the leaders in Israel, 
the leaders in the Palestinian community, the leaders in 
Lebanon. That was really fascinating, how they have been able 
to kind of cultivate a democracy. And then we went into Syria. 
And that was extraordinary, too.
    What I had learned of Lebanon made me feel that it was so 
fragile. I mean, there are different leaders, different faiths, 
allocations of who got to be in what position. And so when 
there was this effort to get after--the assassination to get 
Syria to leave, take its troops out of Lebanon, I thought this 
isn't going to happen. And I was wrong. And it made me think of 
how surprised I was that Syria did take its troops out. I was 
surprised that there was a strong movement to make that demand. 
But then there was the counterforce, Hezbollah and others, the 
political wing of Hezbollah was out in force.
    And so the question I want to ask each of you, because the 
surprise to me was that Syria took its troops out. I want to 
ask each of you, what is the biggest surprise that's happened 
in the Middle East since the fall of Saddam? It can be a 
positive surprise, it can be a negative. If you have more than 
one but they are clustered together, you can do that. But tell 
me the thing that honestly surprised you, your expectation was 
different. And I'm not going to go in order because you may 
want to think about this. But is anyone ready to say what 
surprised them?
    Mr. Campbell. I'll jump in.
    Mr. Shays. OK.
    Mr. Campbell. Sure. I think we don't know how it will turn 
out yet, but what has surprised me are the potential changes in 
Egypt and the fact that there are people on the street in Cairo 
and in other places of Egypt. In the years that I've been doing 
this, I think my greatest frustration has been the inability to 
find partners in Egypt. NDI now has 10 offices across the 
region, but one of those offices does not include Egypt. And we 
have found demand for democracy in almost every other country. 
If the Syrian government would allow, we could easily work with 
Syrian reformists more. But Egypt has been difficult. And now 
there are people on the street. These are not large numbers, 
it's a couple hundred people in a country of 55 or more 
million. But the fact that people have the nerve to go on the 
street, the guts, the steel to go on the street and face arrest 
and ask for change has really surprised me. I don't know how it 
will turn out, but that I did not expect.
    Mr. Shays. Tell me another surprise. Anyone? There has to 
have been--everything has gone just the way you anticipated it? 
I mean, there had to have been things that surprised you.
    Mr. Saffuri. I think I have two surprises. One of them that 
I am still astonished, that the Wahhabi establishment in Saudi 
Arabia still have so much power and the government claim they 
cannot do anything about it. That is a huge surprise, because I 
think the government have lots of power and they can 
marginalize them.
    The other surprise is I think the Arab dictatorships are 
the only ones in the world besides North Korea that these 
revolutionary republics are giving the children the Presidency. 
The President dies now, it's becoming monarchy republics. And 
it happens in Syria and it looks like it might happen in other 
places there, too.
    Mr. Shays. And it's a surprise that could happen.
    Mr. Saffuri. That could happen. Yes.
    Mr. Shays. In this day and age.
    Mr. Saffuri. Absolutely. Yes.
    Ms. Yacoubian. I'm actually going to volunteer three 
surprises. But I think if I sat here and thought more, I could 
probably give you more. But the first that comes to mind is the 
holding of municipal elections in Saudi Arabia, which, again, 
to my mind, represents a very important forward step. While 
they were limited in many ways, for a country that had not had 
nationwide elections in decades, to me it showed the power of 
over time the realization of what happened post-September 11th 
and the need to change.
    I have not had the privilege of going to Iraq, and I have 
to say that I was very surprised at the way those elections 
took place, and very, very wowed by the courage of the Iraqi 
people to go to the polls.
    And, finally, I too was surprised by the Syrian withdrawal 
from Lebanon. And the power of the Lebanese people, again, to 
go out into the street and demand some control over their 
destiny, to me very, very powerful, and a reminder of the 
forces at play at the region and how unpredictable they often 
are.
    Ms. Dugan. We are a little stymied by the question because 
I think actually there have been a lot of things in the region 
that have stunned us, because 5 years ago we couldn't have 
really considered them.
    Maybe the one thing that I will mention is this. For so 
long the Middle East was the democratic exception, the only 
place in the world where you just couldn't really have these 
conversations. Clearly, that's not the case any longer. Now 
what we find, though, is people in these countries as a result 
of what happened in Iraq, presumably, saying, you know, if they 
could have it there, why can't we have it, too? This has been--
I think this sort of vocalization of we want it, too, is 
perhaps, you know, something that's clearly noteworthy.
    Professor Armanios. Without being redundant, I would cite 
both Egypt and the Lebanese case as the most surprising. But 
overall--I guess I'm--having grown up in the region, I'm 
surprised by a sense of optimism that exists there now that 
perhaps had not existed earlier as a result of all of these 
changes. I'm approaching it with cautiousness, but I'm sharing 
the optimism as well, that reform will come soon.
    Mr. Campbell. Can I cheat, because I have a surprise that 
someone else told me the other day, which I thought was 
interesting. And that is that the--his name is Mosin, and I'm 
sorry I forget his second name. An Iranian student activist who 
eventually became the architect of the repressive part of the 
Iranian establishment that enforced certain types of behavior 
on the street is now a fellow at the Washington Institute, as 
everyone will know, what's regarded as a pro-Israel think-tank 
here in Washington. And he is unapologetically there to talk 
about the possibilities of democracy in Iran and the Middle 
East. And an Iranian activist said yesterday: Why is this not 
front-page news in the New York Times and Washington Post? This 
is amazing.
    So I will cheat and add someone else's surprise to that.
    Mr. Shays. Any others? It's kind of fun to think about. 
Isn't it?
    This is not intended--this question is not intended to 
justify our presence in Iraq or not. I mean, I voted to go 
there and so on. But I have to believe that some of these 
surprises are related to a presence in Iraq. Obviously, the 
elections in Iraq itself. Obviously the--frankly, the timely 
death of Arafat, frankly. And I want to know if you think these 
things would have happened had there not been this stirring up. 
I'm not saying--it happened now. Maybe they would have 
happened, but it happened now.
    Maybe I will put you on the spot a little, Mr. Saffuri. I 
mean, not justifying our presence there. But has that been a 
catalyst for some of these changes?
    Mr. Saffuri. Probably in Egypt, yes. I'm not sure Lebanon. 
I think the situation in Lebanon's been deteriorating for the 
last few years. Lebanon also have a history of democracy. They 
hold elections, they held elections during 29 years of Syrian 
presence in Lebanon. I think the biggest factor in Lebanon was 
really the assassination of former Prime Minister Rafiq Hariri. 
But I think Egypt probably is a factor. I think another is 
Kuwait. That debate over women's right to vote and participate 
in the democratic process in Kuwait, there has been lots of 
resistance and the government was not willing to confront the 
tribal section in Parliament or sector and Islamic parties. But 
because of how they would be viewed by the United States, I 
think that's how many of them backed down. And I believe in 
that. I was in Kuwait 2 weeks ago during this debate.
    Mr. Shays. I don't know what final status is though.
    Mr. Saffuri. Yesterday the decision was made, there was 
another vote taken that women will be allowed to participate in 
elections.
    Mr. Shays. OK.
    Mr. Saffuri. So I think these are major changes, and I 
think these are taking place because of the United States and 
because of us being in Iraq.
    Mr. Shays. I participated in the World Economic Forum, and 
frankly, in Jordan, and it is one of the most engaging 3 days I 
have had in the world community. And I see this unbelievable 
desire on the part of individuals from so many different towns 
in the Middle East, from wanting to interact and wanting to 
reverse this report that basically points out that of the 21 
Arab states, their gross domestic product is smaller than 
Spain's, in spite of oil wealth. And it's a powerful feeling 
that it is, you know, taking place in this forum, and yet there 
is absolute--there is very strong anger with the arrogance of 
the United States at the same time. And yet in a way I feel 
like maybe it should have happened differently. And clearly we 
shouldn't be so arrogant, but I feel it's happening in part 
because of what we're seeing happen there.
    What the thing that you would fear the most that the United 
States could do to overplay its cards, to force a response that 
would be contrary to what the United States would do? In other 
words, if I asked someone in Iraq their biggest concern, they 
would say that the United States will leave, after doing all 
this, after getting us, you know, to a point where we're 
willing to, you know, come out of the cave in a sense and step 
forward and risk our lives. Now that's one fear that Iraqis 
tell me. But what are other fears that you may have that the 
United States could do that you think would be a mistake? If 
you could tell the President of the United States or me or 
someone else, what would you not want to see the United States 
do?
    Mr. Saffuri. My biggest fear is Iraq turning into a 
theocratic democracy, and this is a truth here. And the end 
part is run in the elections, run in the Kurdish umbrella or 
the Shi'ite umbrella. And I think the majority of parliament 
now is held by the Shi'ite groups, and my fear is that Iraq 
will turn into Iran because you have religious and ethnic in 
the civil war.
    Mr. Shays. Why don't we take the question that you 
answered, which isn't the question I asked; what is the biggest 
fear that you have in the Middle East? Forget the United States 
for a second. I should have asked it first. And you gave a very 
important answer, what is the biggest fear that you have that 
might occur in the Middle East that we need to be alert to? I'm 
asking anyone.
    Mr. Saffuri. I think a coup in Egypt or Saudi Arabia would 
be my biggest fear. I think that would change the two countries 
and would change the entire region.
    Mr. Shays. Other comments?
    Professor Armanios. I think my biggest fear that the change 
that the United States is advocating from the ground will 
appear to be coming only from the United States and not from 
indigenous sources. It needs legitimacy. The kind of forces 
we're advocating, it needs legitimacy, and my fear is not being 
able to engage with wider groups in making significant change.
    Mr. Campbell. I'm not sure if I fear that because in our 
work in the Middle East, we have never seen or felt the demand 
that we see now. In other words, there is no amount, it seems, 
of time or staff or money that can satisfy the demand that 
we're finding from indigenous reformers. I find that there 
could be more, and they are committed and they are emboldened 
and empowered by the rhetoric of President Bush and others. 
Other countries are also stepping forward, Lebanon is becoming 
very much a European project. Palestine is becoming more and 
more a European project. So I feel optimistic about the region.
    My fear here in the United States is that the constituency, 
the policy constituency I think and the political constituency, 
for the realist point of view, for the point of view that says 
that we have to approach the rest of the world with our 
interests in mind, and you know, Henry Kissinger had an op ed 
piece in the newspaper yesterday articulating this very well. 
The people that believe, that are still there, they're around, 
they're still in the State Department, they're in academia.
    Mr. Shays. They believe what, specifically?
    Mr. Campbell. They believe that stability is--certainly 
stability would be paramount and would take precedence over 
democracy, because there is something inherently destabilizing 
about democracy. They believe that the United States should 
approach international relations with its own interests in 
mind----
    Mr. Shays. But the interesting thing is--excuse me for 
interrupting, so keep your thought. If I attributed that policy 
to any one government official, it would have been Henry 
Kissinger. That's the irony.
    Mr. Campbell. And he is articulating it again----
    Mr. Shays. But promoting it?
    Mr. Campbell. I think he is promoting the idea of stability 
and----
    Mr. Shays. Well, that would be consistent with his message.
    Mr. Campbell. That is what he is promoting, but he is 
simply voicing what others still feel--I can't put my fingers 
on it, but in attending many, many meetings at the State 
Department talking about Middle East democracy, there is still 
a large reservoir of doubt and cynicism and skepticism. It is 
out there. And a lot of people are laying in wait for this 
whole experiment to fail, and it will become a self-fulfilling 
prophesy.
    And again, I have to preface these things because I don't 
speak as a political supporter, in fact, I'm a stealth Canadian 
from a left wing party in Canada. So if I had to express my 
personal views, but in this business the United States has 
unleashed, and I think tremendously positively unleashed, 
something that existed below the surface. I don't think going 
to war was the right idea, but there is no denying that it has 
set in motion something unbelievably important. President 
Bush's rhetoric gives voice to this, and it has energized the 
demand. The fear is that there are many, many people laying in 
wait. Europeans that are waiting for President Bush to fail, 
there are some saying this is a cockamamie idea that is going 
south, and it's going south in Iraq first.
    So my fear is that people, through just kind of being half-
hearted, lay back and allow these things to fail. So I think my 
final comment would be, that those of us who play a lesser role 
need to redouble our efforts if we're serious about this, and 
if we honestly believe that they deserve freedom as much as 
anyone else, that has to be an absolute change in our thinking, 
it cannot be reversed by the political ups and downs, or even 
the ups and downs in Iraq. And I think a lot of people are 
waiting for the political wings to change.
    Mr. Shays. Any other comments? I'd just like to say I would 
like to invite you all to my house for dinner, the only problem 
is I wouldn't want to go to bed. You just make me want to ask 
more questions. Your expertise is terrific, and you are giving 
so much thought to these issues. It is really an enjoyable 
opportunity to have with all of you. Thank you.
    Mr. Higgins.
    Mr. Higgins. Just briefly, Mr. Chairman.
    I am relatively new here. And first of all, I'm very 
impressed with your thoughtful analysis and presentation of a 
very complex subject matter that is critically important to our 
national security, but also to the security of our Nation and 
all free nations throughout the world.
    I'm a history teacher, and my focus of attention was Anglo 
Irish history. But in the study of history and in the 
presentation of it to students, you find that history lessons 
inherent in history are timeless and universal, and they belong 
to no one culture or no one people. And I was struck by not 
only this panel, but the one that preceded it as well. And 
we're talking about what is that tipping point, who are the 
courageous leaders who sometimes are known, but today they may 
be unknown. And I think of communist Poland in the earlier part 
of the 20th century, and also the Islamic extremists within the 
early part of the 21st century, when you look at both of those 
tyrannical governments, what they seem to do is keep people 
afraid, keep them isolated. They seek to own everything 
physical and control everything intellectual.
    And I am also struck, the recent passing of Pope John Paul 
II, forget about religion for a moment, what he did for the 
Polish people, he taught them to be unafraid, to challenge 
their government. And when he went to Poland after becoming 
Pope, he not only talked about God, he talked about history and 
culture. And his warmth through millions of people into the 
street, which he gave them, instilled in them the strength to 
challenge the old way of government.
    And I'm reminded of Machiavelli, who had said that the 
reformer has enemies, and all those profit by the older order 
and only lukewarm defenders who would profit by the new order. 
And what he was saying was reform is very, very difficult. A 
lot of people want it, but they don't quite know how to get 
there. And the last panel, Mr. Al-Alusi, I think, demonstrated 
the kind of emerging courageous leaders that will fundamentally 
transform the direction of the Middle East to a more free and 
democratic place. So thank you very much, it has been helpful 
to me.
    Mr. Shays. This is a comment only intended to say having 
been to Iraq seven times, I would have been surprised if the 
elections hadn't succeeded because I saw in Iraqis tremendous 
pride, a lot of desire to succeed, and embarrassment in the way 
that the United States had to come to rid them of Saddam, that 
this is something they would have wanted to do on their own. 
And absolute extraordinary astonishment and disappointment that 
we basically wiped out their police, their army, their border 
patrol, and started fresh because they had a lot of capable 
people they felt, their brothers, their uncles and so on, 
fathers who worked there.
    So mistakes, I think, we made. But just an extraordinary--
when I meet with some of these Iraqi leaders, and I don't know 
if you all have encountered this, but I feel like I'm meeting 
with people who want to be the Jeffersons, the Madisons, the 
Hamiltons. They feel like they have been given historic 
opportunity. And obviously not every one, but there wasn't 
everyone like that in our own beginnings. But they do realize 
that they have this extraordinary opportunity. And Mr. Al-Alusi 
is an example of one. I mean, I literally, when I met with him 
in my office, said you can't go back to Iraq, you are not safe, 
you are a target, your family is a target; I will do everything 
I can to enable you to stay in the United States. And he looked 
at me with some astonishment that I would say that and said, 
no, I can't desert my party and desert my country, they need 
me, or it needs me. It was just like this moment of saying 
whoa, I'm seeing something extraordinary.
    So I would like to just end by your all saying what you 
think a question we should have asked that we didn't, something 
you want on the record that you think needs to be on the 
record, and just hear you close up this panel.
    Maybe we could start with you, Ms. Dugan.
    Ms. Dugan. Well, we had a bit of a curtain raiser within 
the first panel, so I have been giving it some thought.
    It really speaks to resources. And when I say resources, I 
mean, quite distinctly, not just money. The fact of the matter 
is that we are well funded. We will always be looking for more 
money, but it really has to do with more, it has to do with all 
the other tools that are available in our tool box, not only 
from the perspective of an institute like IRI or NDI, but also 
when it comes to kind of harnessing the energies of the U.S. 
Government, of the U.S. Congress, of partners abroad, not only 
at the government level, but also our counterparts at the NGO 
level and identifying those voices on the ground and giving to 
them as much oxygen as we possibly can provide.
    And I just want to make sure that everyone has a chance to 
reflect on that, because at the end of the day, that is what 
will win the day. I thank you, sir.
    Mr. Campbell. Again, referring to some of the questions 
that were provided to us to help prepare our testimony, one of 
the questions was how should the Bush doctrine be changed or 
modified to encourage reform in countries. And what struck me 
in thinking about that is it is very easy to think about the 
experience in Iraq and some of the things that have happened 
lately, Lebanon as we discussed and Saudi Arabia and so on, and 
to assume that we should all be looking for dramatic changes.
    It has struck me in my travels back and forth from Iraq and 
watching Iraq that the experience of Iraq may, in the end, be 
more instructive and more helpful in helping about the 
countries that are called liberalized countries in the Middle 
East, for example, Qatar and Yemen, countries that have gone a 
certain distance, but who try to manage the process of 
political change, who attempt to free up, to some extent, are 
meant to control the rest. And my dealings in Iraq, as I 
watched 300 parties emerge on the scene, hundreds of civil 
society organizations and seen Iraqis celebrate the idea that 
they could go out and cast a vote, it has struck me that Iraq 
ultimately may cause the greatest change in those countries 
that are trying to control this process of liberalization. And 
it seems to me that the greatest challenge exists, and U.S. 
policy changes challenges exist in pushing--continuing to push 
in these liberalizing countries, in other words, not just 
concentrating on the big breakthroughs, the Syrians and so on, 
but to say you have gone this far, but you have to go further. 
You are our friend, we respect you, we want to work with you, 
but this is not yet democracy. So not stopping now and pushing 
even with your friends. So I think that is a great challenge.
    Professor Armanios. I think one of the challenges in front 
of us today is the extent to which the United States is willing 
to take risks in the region to promote democracy. Some of the 
things that might happen are exactly what Mr. Saffuri was 
implying, the rise of theocracies or the rise of governments 
that do not necessarily adhere to our own interpretations of 
democracy.
    And I'm just curious to what extent the United States will 
be willing to go that extra step to engage those groups that 
frankly have been long disenfranchised and ignored by our 
policies, but it might be time to really consider how they're 
going to become included in the future.
    Mr. Shays. I want to be clear, they being?
    Professor Armanios. They being moderates on all sides, 
those who call themselves moderate, Islamists, those who will 
be willing to work in a pluralistic society without promoting 
violence. Nonviolent groups----
    Mr. Shays. You don't feel that they're being engaged by the 
United States?
    Professor Armanios. I don't feel that they're being engaged 
enough. And ``engaged'' here is a problematic word. I don't 
know how exactly we should go about engaging them, that is a 
problematic question. I do feel that we should learn more about 
them, we should find out more about them, who are they.
    Mr. Shays. And this is more grassroots folks that you're 
thinking of?
    Professor Armanios. Yes, grassroots groups that have been 
long repressed. I'm not suggesting that we talk to the Muslim 
brotherhood in Egypt, but we should find out more about their 
appeal, find out who their message appeals to and why, and talk 
to those communities.
    Mr. Shays. Thank you.
    Mr. Saffuri. I think the U.S. Government is talking to the 
brotherhood in many countries.
    There is several points I would like to bring up. First, 
the issue of Islam and democracy, they are compatible. I would 
like to stress a point that Islam, the leader or the ruler does 
not get his legitimacy without the sharia and the baya. When 
the profit died, he did not appoint anyone, the elderlies, the 
heads of the tribes had to meet, nominate during the sharia and 
naya to get the baya. So to argue all the time that Islam is 
not compatible with democracy is fault. As a matter of fact, 
the leader is not legitimate as long as he does not go through 
that process.
    The other point is the media. The U.S. Government, 
according to some reports, have spent over $1.7 billion to 
spread democracy in the Middle East, and I think some of that 
money has been well spent and there is lots of--has been put to 
a great use, but one of the areas that has to be taken a look 
at, and this is Congress, because Congress appropriated that 
money, is the media project. I think the viewers show horrors 
between 2 and 5 percent.
    For the amount of money that is being spent, I think about 
$170 billion a year, that is very little, they have to little 
of another way of how to turn a horror into a real form that 
people can watch something, not to compete with Jazeera, but 
something similar to what Jazeera provides.
    There is a real hunger in the Arab street for free dialog 
and free debate. What Jazeera provided people in the Arab 
street is something they never seen before, they saw it on CNN, 
but they never saw it from their press. And for that reason 
everyone watches Jazeera, regardless, they think some programs 
are very civil programs, some programs are serious. And Jazeera 
have been a cause of problem for the government of Qatar. And I 
think several countries pulled their Ambassadors because of 
Jazeera, many Arab countries. At one point four north African 
countries pulled their Ambassadors.
    The PLO closed their office one time also. And there was an 
attack. So they must be doing something right, and I think we 
teach the whole world, you know, with the influence of 
Hollywood--Time magazine is everywhere you go. In the airport, 
there is more Time magazine on the display than there is 
economists.
    So we have this tremendous influence that American media 
plays on the whole world; on the other hand, we cannot pay any 
influence as an American media in the Arab street. And this is 
an area that really needs to be addressed.
    Last point. I also have been thinking about this question, 
and to my mind, the word that immediately came to mind was 
courage. And I think first it was heartening to have such 
courageous gentlemen to sit at the table, and it has been a 
theme, the courage of those in the region pushing and voting 
for reform.
    I think that here in the United States we need to match 
that courage with our own, both with respect to what my 
colleagues suggest with regard to the need to engage Islamist--
moderate Islamists and others whom there is a bit of knee-jerk 
response against. And also I think courage to push for 
governments in the region who are our friends, who take some of 
the difficult and necessary steps for opening that in the long 
term will lead to a more stable free and prosperous Middle 
East.
    Mr. Shays. I want to thank each and every one of you. You 
have been a wonderful panel. You have given us lots to think 
about. And whether it was intended or not, you leave me with a 
lot of hope, a lot of hope. And I appreciate the competence of 
all five of you. It's nice to know that you're doing the work 
you're doing. Thank you so much.
    With that, this hearing is adjourned.
    [Whereupon, at 1:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
